<html>
<title> - THE BEST OF HEAD START: LEARNING FROM MODEL PROGRAMS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




         THE BEST OF HEAD START: LEARNING FROM MODEL PROGRAMS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EDUCATION REFORM

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             April 14, 2005

                               __________

                            Serial No. 109-7

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-629                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EDUCATION REFORM

                 MICHAEL N. CASTLE, Delaware, Chairman

Tom Osborne, Nebraska, Vice          Lynn C. Woolsey, California
    Chairman                         Danny K. Davis, Illinois
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Vernon J. Ehlers, Michigan           Robert E. Andrews, New Jersey
Judy Biggert, Illinois               Robert C. ``Bobby'' Scott, 
Todd Russell Platts, Pennsylvania        Virginia
Ric Keller, Florida                  Ruben Hinojosa, Texas
Joe Wilson, South Carolina           Ron Kind, Wisconsin
Marilyn N. Musgrave, Colorado        Dennis J. Kucinich, Ohio
Bobby Jindal, Louisiana              Susan A. Davis, California
John R. ``Randy'' Kuhl, Jr., New     George Miller, California, ex 
    York                                 officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 14, 2005 2003..............................     1

Statement of Members:
    Castle, Hon. Michael N., Chairman, Subcommittee on Education 
      Reform, Committee on Education and the Workforce...........     2
        Prepared statement of....................................     3
    Woolsey, Hon. Lynn C., Ranking Member, Subcommittee on 
      Education Reform, Committee on Education and the Workforce.     4
        Prepared statement of....................................     4

Statement of Witnesses:
    Cunningham, Gayle, Executive Director, Jefferson County 
      Committee for Economic Opportunity Child Development 
      Services, Birmingham, AL...................................    29
        Prepared statement of....................................    31
    Daeschner, Dr. Stephen W., Ph.D., Superintendent, Jefferson 
      County Schools, Louisville, KY.............................     7
        Prepared statement of....................................     8
    Mainster, Barbara, Executive Director, Redlands Christian 
      Migrant Association, Immokalee, FL.........................    21
        Prepared statement of....................................    23
    Marker, David, Chief Financial Officer, Miami Valley Child 
      Development Centers, Inc., Dayton, OH......................    14
        Prepared statement of....................................    15
    Siegfried, Scott, Program Coordinator, Miami Valley Child 
      Development Centers, Inc., Dayton, OH......................    18
        Prepared statement of....................................    19

Additional materials supplied:
    Field, Dr. Charles R., MD, MPH, FAAP, Mary Kaye McKinney and 
      Patricia A. Price, University of Arkansas for Medical 
      Sciences, Department of Pediatrics Head Start Program, 
      Pulaski County, AK, Statement submitted for the record.....    49
    Melmed, Matthew E., J.D., Executive Director, Zero to Three 
      Policy Center, Washington, DC, Statement submitted for the 
      record.....................................................    53
    Nolan, Dr. Tim, Director, Head Start Program, Waukesha 
      County, WI, Statement submitted for the record.............    57
    Pagliaro, Ann, Head Start of Eastern Orange County, Newburgh, 
      NY, Statement submitted for the record.....................    62

 
          THE BEST OF HEAD START: LEARNING FROM MODEL PROGRAMS

                              ----------                              


                        Thursday, April 14, 2005

                     U.S. House of Representatives

                    Subcommittee on Education Reform

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:32 a.m., in 
room 2175, Rayburn House Office Building, Hon. Michael Castle 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Castle, Osborne, Ehlers, Biggert, 
Woolsey, Grijalva, Scott, Hinojosa, Kind, Kucinich, and Davis 
of California.
    Ex officio: Representative Boehner.
    Staff present: Amanda Farris, Professional Staff Member; 
Kevin Frank, Professional Staff Member; Jessica Gross, 
Legislative Assistant; Lucy House, Legislative Assistant; Kate 
Houston, Professional Staff Member; Sally Lovejoy, Director of 
Education and Human Resources Policy; Alexa Marrero, Press 
Secretary; Deborah L. Samantar, Committee Clerk/Intern 
Coordinator; Rich Stombres, Assistant Director of Education and 
Human Resources Policy; Ruth Friedman, Minority Legislative 
Associate/Education; Lloyd Horwich, Minority Legislative 
Associate/Education; Ricardo Martinez, Minority Legislative 
Associate/Education; Alex Nock, Minority Legislative Associate/
education, and Joe Novotny, Minority Legislative Assistant/
Education.
    Chairman Castle. The Subcommittee on Education Reform of 
the Committee on Education and the Workforce will come to 
order. We are meeting today to hear testimony on ``The Best of 
Head Start: Learning from Model Programs.'' Under Committee 
Rule 12(b), opening statements are limited to the Chairman and 
the Ranking Minority Member of the Subcommittee. Therefore, if 
other Members have statements, they may be included in the 
record.
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow Members' statements and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record. Without objection, so 
ordered.

STATEMENT OF HON. MICHAEL N. CASTLE, CHAIRMAN, SUBCOMMITTEE ON 
   EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Good morning, and thank you for joining us today for a 
hearing on ``The Best of Head Start: Learning from Model 
Programs.'' As Congress prepares to strengthen and reauthorize 
the Head Start program, I think it's vital that we listen to 
those who have been successful so that we may learn from their 
experience.
    For the better part of 2 years, this Committee has been 
making the case that Head Start is a good program that can be 
made stronger. Since 1965, the Head Start program has provided 
comprehensive health, developmental, and educational services 
to disadvantaged four- and 5-year-olds. Head Start involves 
parents and communities in helping prepare needy children to 
succeed in school and beyond.
    Yet despite the many success stories in the program, and 
there are many, we have also heard troubling stories about 
program weaknesses. The GAO recently released a report that 
warned that the financial control system in the Federal Head 
Start early childhood program is flawed and failing to prevent 
multi-million dollar financial abuses that cheat poor children, 
taxpayers, and law-abiding Head Start operators.
    The GAO made some helpful recommendations on how we can 
strengthen the oversight structure to prevent abuses and 
protect good grantees. It recommended that increased 
competition in the program could help weed out poorly 
performing grantees and ensure high quality services are 
available to children and families. This Committee has long 
supported competition as a way to foster innovation and 
quality, and that is a recommendation we intend to take 
seriously.
    In addition to listening to the GAO, we are reaching out to 
the public for insight and input on how we can make Head Start 
stronger and ensure its continued success into the future. We 
launched a website about 2 weeks ago, and already we've 
received more than 200 responses from parents, teachers and 
other stakeholders in early children education with 
recommendations on how the program can be made stronger. We're 
also seeking success stories about exemplary programs in local 
communities. We want to know what works and what doesn't so 
that we can learn from the experiences of those programs that 
are leading by example.
    Today we're going to hear from representatives of a few of 
the many high quality programs participating in Head Start. 
We've invited these witnesses to share their stories and help 
us to better understand what factors can help a program to 
succeed.
    Exemplary programs should demonstrate success in multiple 
facets of their program, including strong parent involvement; 
success in improving child outcomes across all developmental 
domains; a language-rich learning environment; well-qualified 
staff and administrators; an engaged board of directors; clean 
financial audits and program reviews; and full program 
enrollment. Actually, it sounds like something Congress should 
be doing.
    Additionally, exemplary programs should secure community 
involvement and support, and when possible, integrate Head 
Start with pre-kindergarten and other early learning programs 
within the community.
    Programs that exhibit these qualities should be the rule, 
not the exception. Today I hope our witnesses will help us to 
define a gold standard for Head Start so that this Committee 
can enact legislation that makes it easier for all programs to 
meet it.
    I thank the witnesses for joining us today, and I look 
forward to hearing your testimony.
    I will now yield to the gentlelady from California, the 
Ranking Minority Member of this Subcommittee, Ms. Woolsey, for 
her opening statement.
    [The prepared statement of Chairman Castle follows:]

    Statement of Hon. Michael N. Castle, Chairman, Subcommittee on 
       Education Reform, Committee on Education and the workforce

    Good morning, and thank you for joining us today for a hearing on 
``The Best of Head Start: Learning from Model Programs.'' As Congress 
prepares to strengthen and reauthorize the Head Start program, I think 
it's vital that we listen to those who have been successful so that we 
may learn from their experience.
    For the better part of two years, this committee has been making 
the case that Head Start is a good program that can be made stronger. 
Since 1965, the Head Start program has provided comprehensive health, 
developmental, and educational services to disadvantaged four and five-
year olds. Head Start involves parents and communities in helping 
prepare needy children to succeed in school and beyond.
    Yet despite the many success stories in the program--and there are 
many--we have also heard troubling stories about program weaknesses. 
The GAO recently released a report that warned the financial control 
system in the federal Head Start early childhood program is flawed and 
failing to prevent multi-million dollar financial abuses that cheat 
poor children, taxpayers, and law-abiding Head Start operators.
    The GAO made some helpful recommendations on how we can strengthen 
the oversight structure to prevent abuses and protect good grantees. It 
recommended that increased competition in the program could help weed 
out poorly performing grantees and ensure high quality services are 
available to children and families. This committee has long supported 
competition as a way to foster innovation and quality, and that is a 
recommendation we intend to take seriously.
    In addition to listening to the GAO, we are reaching out to the 
public for insight and input on how we can make Head Start stronger and 
ensure its continued success into the future. We launched a website 
about two weeks ago, and already we've received more than 200 responses 
from parents, teachers, and other stakeholders in early childhood 
education with recommendations on how the program can be made stronger. 
We're also seeking ``success stories'' about exemplary programs in 
local communities. We want to know what works and what doesn't so that 
we can learn from the experiences of those programs that are leading by 
example.
    Today, we're going to hear from representatives of a few of the 
many high quality programs participating in Head Start. We've invited 
these witnesses to share their stories and help us to better understand 
what factors can help a program to succeed.
    Exemplary programs should demonstrate success in multiple facets of 
their program, including strong parent involvement; success in 
improving child outcomes across all developmental domains; a language-
rich learning environment; well-qualified staff and administrators; an 
engaged board of directors; clean financial audits and program reviews; 
and, full program enrollment. Additionally, exemplary programs should 
secure community involvement and support, and when possible, integrate 
Head Start with pre-kindergarten and other early learning programs 
within the community.
    Programs that exhibit these qualities should be the rule, not the 
exception. Today, I hope our witnesses will help us to define a gold 
standard for Head Start so that this Committee can enact legislation 
that makes it easier for all programs to meet it.
    I thank the witnesses for joining us today, and I look forward to 
hearing your testimony. I will now yield to the gentle lady from 
California, the ranking minority member of this subcommittee, Rep. 
Woolsey.
                                 ______
                                 

STATEMENT OF HON. LYNN C. WOOLSEY, RANKING MEMBER, SUBCOMMITTEE 
 ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Ms. Woolsey. Thank you, Mr. Chairman. And I, too, 
appreciate your holding this hearing, because it's a very 
important topic, learning from model programs.
    As we continue the reauthorization process that we began 
last Congress, the 108th Congress, I'm pleased that we have 
another opportunity, and this one in particular, to hear 
directly from four high-quality Head Start programs. We want 
your thoughts. We want to know what makes your programs great 
and what you think about reauthorization in general.
    In any reauthorization, I think one of the most important 
steps is to listen to the people who put the laws that we write 
into practice every day. We already know that the vast majority 
of Head Start programs provide comprehensive, high quality 
services that help children make academic and social gains so 
that they can close much if not all of the achievement gap 
before they begin kindergarten.
    Head Start also has strong standards, and we know that, and 
monitoring and accountability measures built into the law to 
ensure high performance, although we need to make certain that 
those measures are enforced.
    I look forward, as I said, to hearing from our witnesses 
about how those measures have helped them and if it's improved 
the quality of their programs, and if not, what we can do to 
improve. Because all of us, most of all the people involved in 
the Head Start programs around the country, who have dedicated 
themselves to improving our most vulnerable children's lives, 
all of us recognize that standards and accountability are not 
about Democrats, not about Republicans, they're about our 
children.
    And, of course, another way to improve those children's 
lives is to devote more resources to Head Start. In that way, 
more children can benefit from the programs like the ones 
represented on this panel. Unfortunately, this President and 
this Congress have not done well in that area, so we need to 
hold ourselves accountable as well.
    But again, Mr. Chairman, I look forward to what I hope will 
be a bipartisan reauthorization of Head Start and to hearing 
from the experts on this panel.
    Thank you.
    [The prepared statement of Ms. Woolsey follows:]

  Statement of Hon. Lynn C. Woolsey, Ranking Member, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

    Thank you, Mr. Chairman.
    I appreciate your holding this hearing today on this important 
topic--``Learning From Model Programs.''
    As we continue the reauthorization process that we began last 
Congress, I am pleased that we have an opportunity to hear directly 
from four high-quality Head Start programs about what makes a great 
program and on reauthorization in general.
    In any reauthorization, I think one of the most important steps is 
to listen to the people who have to put the laws we write into practice 
every day.
    We already know that the vast majority of Head Start programs 
provide comprehensive, high quality services that help children make 
academic and social gains so that they can close much, if not all, of 
the achievement gap, before they begin kindergarten.
    Head Start also has strong standards, monitoring, and 
accountability measures built into the law to ensure high performance, 
although we need to take care to see that those measures are enforced.
    I look forward to hearing from our witnesses about how those 
measures have helped them improve the quality of their programs and 
what we can do to improve.
    Because all of us--most of all, the people in Head Start programs 
around the country, who have dedicated themselves to improving our most 
vulnerable children's lives--recognize that standards and 
accountability are not about Democrats or Republicans; they're about 
those children.
    Of course, another way to improve those children's lives is to 
devote more resources to Head Start so that more children can benefit 
from programs like the ones represented on this panel.
    Unfortunately, this President and this Congress have not done well 
in that area, and so we need to hold ourselves more accountable as 
well.
    But again, Mr. Chairman, I look forward to what I hope will be a 
bipartisan reauthorization of Head Start, and to hearing from this 
panel.
    Thank you.
                                 ______
                                 
    Chairman Castle. Thank you, Ms. Woolsey. And we do have a 
very distinguished panel of witnesses today, and we're going to 
go through the introductions at this point. And we'll do it 
across the order here.
    But the first is Stephen W. Daeschner, Ph.D. Dr. Daeschner 
is the Superintendent of the Jefferson County Public School 
District in Louisville, Kentucky. JCPS is the 28th-largest 
district in the nation, serving 96,000 students from preschool 
through grade 12.
    Since 1993, Dr. Daeschner has been responsible for the 
implementation of a systemic pre-kindergarten program for 
three- and 4-year-olds using funding from Head Start and state 
level school readiness initiatives. Dr. Daeschner is a board 
member for Greater Louisville, Inc., the Metro Chamber of 
Commerce, and is an adjunct professor at the University of 
Louisville. He holds a Ph.D. in education administration from 
the University of Wisconsin.
    And thank you. We appreciate having you here, Dr. 
Daeschner.
    At this time I would like to welcome the Chairman of the 
Full Committee, John Boehner, to the Subcommittee. A few of the 
witnesses joining us today are from the Chairman's district, 
and it's my pleasure to recognize him for the purpose of 
introducing these witnesses.
    Mr. Boehner. Well, thank you, Mr. Chairman, and I'm pleased 
to introduce David Marker. Mr. Marker is the Chief Financial 
Officer of the Miami Valley Child Development Centers, a 
single-purpose Head Start agency in Dayton, Ohio. Working for 
the agency for over a decade, Mr. Marker was promoted to chief 
financial officer in 2002 and is responsible for assisting with 
the overall management of the organization.
    Mr. Marker is a recognized expert in nonprofit management 
who is dedicated to the agency's goal to maintain professional 
standards of conduct in all aspects of fiscal and program 
management. And before working with the Miami Valley program, 
Mr. Marker managed the Dayton Metropolitan Housing Authority.
    He's joined with one of his colleagues, Scott Siegfried, 
who is with the Miami Valley Child Development Centers, as 
well. He is the agency's program director, responsible for 
supervising all education, staff, and activity since 1991. He 
oversees child assessment activities to ensure that all 
children are making academic progress, and maintains a 
successful track record in preparing their students for 
kindergarten.
    Mr. Siegfried is a member of the National and Dayton 
Associations for the Education of Young Children, as well as 
the Dayton Public Schools Preschool Network. And he holds a 
master's degree in early childhood education from Nova 
Southeastern University.
    I might also add that they have with them their boss, Ms. 
Sherrie Lookner, who is the president and CEO at Miami Valley. 
She's here today, and we want to thank her for coming. They 
together operate a top notch Head Start program, covering part 
of my district and Mr. Hobson's district, as well, and I think 
she and her staff deserve great credit for the successful 
program that they have. And I'll say welcome.
    Chairman Castle. Sherrie, could you raise your hand, 
please, so we can know who you are. Sherrie Lookner, right 
there. We appreciate having you here, as well.
    The next witness is Barbara Louise Mainster. Ms. Mainster 
is the Executive Director of the Redlands Christian Migrant 
Association, a Head Start agency serving the children of 
migrant and seasonal farm workers. Ms. Mainster has worked with 
RCMA for over 30 years in capacities including program director 
and education coordinator, and was a member of the State of 
Florida Universal Prekindergarten Advisory Council. Ms. 
Mainster holds a degree in social services from Michigan State 
University.
    Welcome.
    And Gayle Cunningham is with us. Ms. Cunningham is the 
Executive Director of the Jefferson County Committee for 
Economic Opportunity located in Birmingham, Alabama, and 
director of the agency's Head Start and Early Head Start 
programs.
    She is a research partner with the Georgia State University 
Head Start Quality Research Center, where her Head Start 
program participated in a design effectiveness study for the 
1998-1999 program year.
    Ms. Cunningham was formerly an assistant professor of early 
childhood education at Delgado Community College in New Orleans 
and a senior research associate for Bank Street College, where 
she led the expansion of the Child Development Associate 
Credentialing Program to include infant and toddler caregivers, 
home visitors, and family daycare providers.
    Ms. Cunningham received her M.S. in early childhood 
education, supervision, and administration from Bank Street 
College of Education.
    And before the witnesses begin, I would like to remind the 
Members here that we will be asking questions after the entire 
panel has testified, for your information, as well. In 
addition, Committee Rule 2 imposes a 5-minute limit on all 
questions. And you all have the clock system in front of you. I 
think you understand it. You have 4 minutes on green, one on 
yellow, and when you see the red, you're supposed to start 
winding down, shall we say, or get wound down. But we do want 
to hear from you, and we really do appreciate all of you being 
here. We always know there's some logistical issues in getting 
here and being with us, so we do appreciate you being here on 
time and ready to go.
    And with that, Dr. Daeschner, we look forward to your 
testimony.

   STATEMENT OF STEPHEN W. DAESCHNER, PH.D., SUPERINTENDENT, 
            JEFFERSON COUNTY SCHOOLS, LOUISVILLE, KY

    Dr. Daeschner. Thank you, Mr. Chairman, and Honorable 
Members of the Subcommittee. Our Head Start, Early Head Start 
programs, our State Preschool Program for students on 
subsidized meals, and our Tuition-based Preschool currently 
serve more than 5,400 children ages 4 and under.
    Our school district's Early Childhood Education Program is 
exemplary and unique in large part because we use an 
integrated, seamless approach to provide programs and services. 
The Head Start and State Preschool Programs are intentionally 
connected through common leadership to provide a uniform, 
developmentally appropriate curriculum.
    Our program is outcome based, and assessment is the key. 
Every three- and 4-year-old student receives frequent 
assessments and also completes an end-of-year profile that 
measures mastery of the physical, social and pre-academic 
skills.
    Teachers certainly receive intensive monthly and summer 
training based on these skill sets that we assess quite 
frequently. Teachers are supported, as an example, with a web-
based Core Content Guides that match the curriculum with 
calendar-based timelines to ensure that every classroom is 
presenting the same instructional material with the same level 
of rigor.
    Another exemplary strategy rests in our creative yet 
physically sound management of financial resources. Our $35 
million annual preschool budget consists of 58 percent Head 
Start and other Federal programs like Title I, 22 percent state 
preschool funds, 16 percent from our district through local 
taxes, 3 percent from parents that pay tuition, and 1 percent 
from local business donations. This integrated funding allows 
all children to receive increased instructional and support 
services without regard to where their program funding is 
generated.
    Meaningful parent involvement is absolutely essential. 
Parents are engaged through a home/school contract that 
includes daily reading with their child and take-home 
activities. Since 76 percent of our preschoolers are from 
single-parent households, our nationally recognized Fatherhood/
Male Initiative ensures that more children are connected with a 
significant, positive male role model.
    How do we know our efforts are working, is with our results 
and our outcomes. Let me give you an example of the 2004 end-
of-year outcomes. With 91 percent mastery for the economically 
disadvantaged students funded by our state program, 96 percent 
mastery for our middle and upper class students who pay 
tuition, and 97 percent mastery for children funded by Head 
Start. As you can see, it makes a big difference.
    What can you do to support our efforts? A quality Head 
Start program integrated into or with a school district 
operation program we think is very important. Creative 
implementation strategies are required to effectively meet the 
regulations of both Head Start program and a state department 
of Education's preschool program. Without a doubt, we can do a 
better job for our children and families by operating under one 
set of guidelines.
    We certainly ask your considerations to grant at least a 
handful of large districts that are current Head Start grantees 
the authority to operate Head Start programs within state 
regulations while maintaining the integrity of the standards 
provided by Head Start. We would be most eager to serve as one 
of these pilot projects.
    We support a proposal offered by Congresswoman Anne Northup 
to enable states to allow some of their school districts and 
Head Start programs to apply for the pilot programs.
    Finally, I feel compelled to draw your attention to one 
very intrusive, as an example, regulation, that has recently 
sprung up from Head Start, which is the requirement that all 
vehicles transporting Head Start children have restraint. Our 
preschoolers in our district are transported on buses that meet 
state standards, and Kentucky has one of the toughest bus 
regulations in the nation. Purchasing and installing child 
restraints would cost our district approximately $5.8 million. 
The diversion of these funds would result in a reduced number 
of children served by Head Start. Later I might give you an 
example.
    We appreciate Congresswoman Northup's action to resolve 
this issue for us and hope this reauthorization of Head Start 
can adopt the language she has proposed for permanent 
enactment.
    I would certainly encourage your review of my written 
comments that expand on many of these verbal statements. I 
certainly appreciate and thank you for allowing me to share our 
successes and some of the recommendations. We think Head Start 
is just an absolutely essential part of our program.
    [The prepared statement of Dr. Daeschner follows:]

  Statement of Stephen W. Daeschner, Ph.D., Superintendent, Jefferson 
                     County Schools, Louisville, KY

    Chairman Castle and Honorable Members of the Subcommittee on 
Education Reform, as you consider the reauthorization of Head Start, I 
appreciate your invitation to address the issue of exemplary programs 
for our youngest students. My name is Stephen Daeschner, and I am 
superintendent of the Jefferson County Public School District in 
Louisville, Kentucky, the nation's 28th largest school district, 
serving more than 98,000 students from birth to grade 12. Our Head 
Start and Early Head Start programs, our State Preschool Program for 
students on subsidized meals, and our Tuition Preschool Program 
currently serve more than 5,400 children ages four and under.
    Our school district's Early Childhood Education Program is 
exemplary and unique in large part because we use an integrated, 
seamless approach to providing programs and services. The Head Start 
and State Preschool Programs are intentionally connected under common 
leadership to provide a uniform, developmentally appropriate 
curriculum. Because Kentucky uses high stakes accountability testing, 
our District has much to gain by ensuring the early preparedness of all 
our preschoolers.
    In addition to our common curriculum and services, there are other 
exemplary strategies that contribute to our success. These strategies 
include assessment and outcome standards, professional development, 
core content guides, interventions, combined funding sources, and 
parent involvement.
    Our program is outcome based and assessment is key. Every three- 
and four-year-old student receives frequent assessments and also 
completes an end-of-year profile that measures mastery of physical, 
social, and pre-academic skills. Results from the individual profiles 
also are used to monitor curriculum implementation districtwide and to 
plan for teacher training in any curricular area that shows systemic 
weakness.
    Teachers receive intensive monthly and summer training focused on 
core content areas, math and literacy curriculum, intervention 
strategies, and summer skills reinforcement to ensure that all children 
are academically prepared for kindergarten, regardless of family 
economic circumstances.. Weekly site meetings are held to discuss 
program issues and collaborate on student needs.
    Teachers are supported with web-based Core Content Guides that 
match the curriculum with calendar-based timelines to ensure that every 
classroom is presenting the same instructional material with the same 
level of intensity. Technology plays a major role in student learning 
today, and our preschoolers get a jumpstart on computer learning, 
especially in the area of literacy, thanks to the provision of 
computers in every classroom.
    Another exemplary strategy rests in our creative yet fiscally sound 
management of financial resources. Our $35 million annual preschool 
budget consists of 58 percent federal Head Start funds, 22 percent 
state preschool funds, 16 percent from the district in local tax funds, 
3 percent from parents for tuition programs, and an additional 1 
percent from local business donations. This integrated funding allows 
all children to receive increased instructional and support services 
without regard to where their program funding is generated.
    Meaningful parent involvement is essential to our early childhood 
program. Parents are engaged through a home/school contract that 
includes daily reading with their child and take-home activities. Since 
76 percent of our preschoolers are from single-parent households, our 
nationally recognized Fatherhood/Male Initiative helps ensure that more 
children are connected with a significant, positive male role model.
    We also use a formal transition program to assist students and 
parents as they move on to kindergarten, and we operate a Parent 
Assistance Center and Family Resource Centers that help families with a 
variety of school programs and social services. The intent is to remove 
any family barriers that would impede a child's academic progress.
    How do we know our efforts are working? The proof is in the data. 
First, over a three-year period, our preschoolers'' mastery of skills 
deemed important for kindergarten success has increased from the level 
of 65 percent to 94 percent. Meanwhile, our Head Start students'' 
performance exceeds both state and National Reporting Systems averages. 
Additionally, results on the nationally-normed Comprehensive Test of 
Basic Skills show our third graders progressing from the 46th 
percentile in 1999 to the 59th percentile in 2004. We attribute much of 
this gain to the long-term effect of our strong Head Start/preschool 
program.
    Second, community support and partnerships continue to grow, with 
Louisville Metro businesses giving over $3 million for additional early 
childhood classrooms. Third, by integrating our funds from multiple 
sources, we have increased the number of children served, the amount of 
instructional time each child receives, and the social services 
provided. Finally, one of our most significant and unexpected outcomes 
is that we are now in the process of designing a more rigorous 
kindergarten curriculum because our preschool/Head Start programs are 
sending children on to kindergarten with a much higher level of skill 
mastery.
    What can you do to support our efforts? A quality Head Start 
program integrated into or with a school district-operated program is 
essential. This developmental education process and seamless transition 
are as important to schools today as the kindergarten program debate 
and implementation were in the 1960s and ``70s.
    Creative implementation strategies are required to effectively meet 
the regulations of the Health and Human Services Department's Head 
Start program, while simultaneously operating a state Department of 
Education preschool program. Without doubt, we can do a better job for 
our children and families by operating under one set of guidelines.
    We understand that you are considering allowing a limited number of 
states or localities to participate in State Demonstration programs. We 
ask your consideration to grant a handful of large districts, that are 
current Head Start grantees, the authority to serve as local 
demonstration projects that would operate Head Start programs within 
state regulations while maintaining the integrity of the health and 
social services standards provided by Head Start. We would be most 
eager to serve as one of those demonstration projects.
    Many states face political pressure from other agencies operating 
Head Start programs. Some states may not be able to apply for school 
districts that are operating as grantees. As an alternative, we support 
a proposal offered by Congresswoman Anne Northup to enable states to 
allow some of their school districts and Head Start programs to apply 
for the demonstration programs. Kentucky's program could be 
administered under the Secretary of Education and the Office of the 
Governor.
    Finally, I feel compelled to call to your attention one very 
intrusive regulation that has recently sprung from Head Start, which is 
the requirement for seat belts on all vehicles transporting Head Start 
children. Our preschoolers are transported on buses that meet state 
standards. Purchasing and installing seat belts would cost over $3.6 
million and require another $2.2 million annually for maintenance. Even 
then, our insurance companies inform us the buses may not be insurable 
due to changes in the vehicles'' structure. The diversion of these 
funds would result in a reduced number of children served by Head 
Start. Additionally, there is no evidence that seatbelts provide 
additional protection but, in fact, may actually create a safety 
hazard. We appreciate Congresswoman Northup's action to resolve this 
issue for us and hope this reauthorization of Head Start can adopt the 
language she has proposed for permanent enactment.
    Thank you for allowing me to share our successes and 
recommendations with this Honorable body.
    [Attachments to Dr. Daeschner's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T0629.001
    
    [GRAPHIC] [TIFF OMITTED] T0629.002
    
    [GRAPHIC] [TIFF OMITTED] T0629.003
    
    [GRAPHIC] [TIFF OMITTED] T0629.004
    

                                ------                                

    Chairman Castle. Thank you, Dr. Daeschner. We appreciate 
your testimony a great deal, and we'll get back to you shortly 
here with a few questions.
    And now we'll turn to Mr. Marker and Mr. Siegfried, who are 
going to do this jointly, as I understand it.
    Mr. Marker. Yes, sir.

 STATEMENT OF DAVID F. MARKER, CHIEF FINANCIAL OFFICER, MIAMI 
       VALLEY CHILD DEVELOPMENT CENTERS, INC., DAYTON, OH

    Mr. Marker. Mr. Chairman and Members of the Committee, I'm 
David Marker and this is Scott Siegfried to my left. We are 
both pleased to be here this morning to discuss accountability 
and child outcomes in the Head Start program.
    This Committee has heard of luxury SUVs, exorbitant 
salaries, credit card abuse and unallowable program expenses 
that have resulted in eligible children not being served. These 
headlines anger me and the people I work with.
    Since 1964, MVCDC has operated with oversight from 
concerned community leaders on our board of trustees. Our 
corporate culture is based on a core value of honesty, 
integrity and understanding that we are stewards of tax dollars 
entrusted to our care. Desired results require continual 
training, review of current law, and review of internal 
controls. In the absence of strong internal controls, you will 
find fraud, waste and mismanagement.
    High levels of integrity require hard work. We did not wait 
for the effects of the Sarbanes-Oxley Act to filter down to 
501(c)(3) organizations. We embraced the concept of executive-
driven, internal control management, and it's now in effect.
    There's no magic formula to maintain strong financial and 
accounting practices. Success requires effort and a conscious 
desire to operate a quality program in accordance with 
regulations.
    Suggestions to protect funds and increase accountability, 
as an example, OMB Circular A-133 requires audits to be 
submitted no later than 9 months after the end of a fiscal 
year. I suggest a change from 9 months to 6 months. Critical 
information can then be in the hands of DHHS 3 months sooner.
    Most grantees draw down Federal funds from the Division of 
Payment Management's website. DPM is efficient, but grantee 
expenditures are not reconciled with funds received except at 
six and 12-month intervals with the standard Form 269 report. 
At a minimum, the report should be submitted on a quarterly or 
even a monthly basis to allow for simple reconciliation.
    Mismanagement of Federal funds requires swift intervention. 
DHHS can terminate a grantee's ability to draw down funds and 
to change that grantee to funding on a reimbursement basis. 
This action protects Federal funds by allowing the regional 
office to authorize payment only after documentation has been 
reviewed.
    GAO has recommended allowing recompetition of grants. 
Grantees with consistent poor financial and programmatic 
performance would be the ideal candidates for recompetition. 
DHHS should remove dysfunctional programs.
    I want to thank the Chairman and Members of the Committee 
on Education and the Workforce for providing me this 
opportunity to summarize my written testimonial report.
    [The prepared statement of Mr. Marker follows:]

  Statement of David F. Marker, Chief Financial Officer, Miami Valley 
              Child Development Centers, Inc., Dayton, OH

    Mr. Chairman, Members of the Committee, I am David Marker and this 
is Scott Siegfried and we are both pleased to be here this morning to 
discuss accountability and child outcomes in the nation's Head Start 
program.
Operation of exemplary programs
    From previous testimony, the committee has been apprised of 
apparent misfeasance or malfeasance in some Head Start programs across 
the country. These problems range from a luxury SUV and exorbitant 
salaries and credit card abuse, to unallowable program expenses that 
result in eligible children not being served. These headlines anger me, 
the staff I work with, and the people at the majority of Head Start 
programs where problems of this nature do not occur.
    Miami Valley Child Development Centers, Inc. (MVCDC) was 
incorporated in 1964, at the time of the creation of the nation's first 
experiment with Head Start. Operating over the years with strong 
management, and oversight from concerned community leaders 
participating on the Board of Trustees, MVCDC developed a corporate 
culture with core values of honesty, integrity, service to the 
community, and an understanding that we are stewards of tax dollars 
entrusted to our care. During our 40 year history, there have been 
problems and bumps in the road, but the culture of MVCDC has survived 
and enabled the agency to operate for more than 15 years without any 
audit findings related to financial management. Although MVCDC may be 
considered an exemplary program within the Head Start community, a 
designation as exemplary today is no guarantee that the program will be 
exemplary tomorrow without continued hard work.
    The culture of MVCDC dictates a professional approach to financial 
management and accounting practices. To achieve the desired result 
requires continual training, review of current laws and regulations, 
and a constant review of internal controls. In the absence of strong 
internal controls, you will find misuse of credit cards, unallowable 
expenses, waste, and possible fraud. It is important not only to 
maintain strong internal controls but to sharpen the focus of all staff 
members to be alert for the signs of waste, fraud, and mismanagement.
    MVCDC has been successful in maintaining high levels of integrity 
through dedication and hard work. As an example, we did not wait for 
the effects of the Sarbanes-Oxley Act to filter down to 501(c)(3) 
organizations. As a corporation, we embraced the basic concept of 
executive-driven internal control management. The Board of Trustees 
adopted an extensive misconduct, dishonesty, and fraud policy which was 
added to our Personnel Policies, and various staff have been involved 
in implementing the policy. Additionally, staff are involved in a 
detailed risk assessment activity that is assessing all aspects of the 
corporation. Once completed, the risk assessment will be presented to 
the Board of Trustees for their evaluation and comment.
    There is no magic formula to maintain strong finance and accounting 
practices. Success requires dedication, hard work, and a conscious 
desire to operate a quality program in accordance with the regulations. 
The people who operate programs in this manner are easy to identify; 
they take no offense at being called a variety of names, and they have 
thick skin because the job requires them to say ``no'' more often than 
they say ``yes''. The easy way to deal with difficult financial and 
accounting issues is to be lax and accommodating. Unfortunately, this 
type of management will eventually result in violation of regulations 
and ultimately, serious financial problems.
    Again, I want to express my anger at the examples of program abuse 
that we have all read in the newspapers. The vast majority of programs 
struggle everyday to operate in accordance with the regulations to 
serve all of the children for which they are funded. To protect tax 
dollars and ensure services are delivered to the at-risk population, 
however, accountability for program performance and fiscal management 
must be strengthened. From my perspective as a program operator, I 
believe that accountability can be vastly improved in the following 
ways.

Proper review and follow-up of audits
    O. M. B. Circular No. A-133, known as the Single Audit Act, 
contains the audit requirements for recipients of federal awards. For 
those agencies with awards less than $500,000, audits are still 
required under the Department of Health and Human Services (DHHS) CFR 
Title 45, Part 74. The potential problem I see under A-133 is that 
audits must be submitted no later than nine (9) months after the end of 
the fiscal year. I believe that by changing the submission date from 
nine (9) months to six (6) months, controls would be strengthened by 
putting the completed audit in the hands of DHHS three (3) months 
sooner, and would not present an undue hardship for programs.
    Once the audit has been received by the DHHS national center, it is 
imperative that the entire audit be reviewed for financial or 
programmatic irregularities. If irregularities are found in the audit, 
this information must be provided to the appropriate Regional Office 
for immediate follow-up. Obviously, findings of questioned costs or 
other serious fiscal problems, along with issues regarding the health 
and safety of children must receive the highest priority for action by 
the Regional Office staff. Swift follow-up action as early as possible 
is a key to limiting the loss of dollars and guiding the agency into 
compliance from a programmatic standpoint.
    Although auditors only offer opinions on the financial statements 
and information provided by management, I believe that it is important 
that all audits be reviewed for their compliance with the audit 
requirements of Circular A-133 and Government Accounting Standards, 
issued by the Comptroller General of the United States. Lack of 
comments regarding performance of the activities required by the grant, 
qualified opinions, or a statement that the audit was completed under 
some standard other than Generally Accepted Accounting Principles, 
should be cause to examine the audit more closely.
Identifying potential financial and programmatic mismanagement
    In addition to the annual financial and performance audit, 
financial mismanagement may be identified in other ways. One method is 
to reconcile the federal funds drawn-down by a grantee to the amount 
that is spent throughout the year. Currently, most Head Start grantees 
draw-down their federal funds from the Division of Payment Management's 
(DPM) website. All grant information is entered into DPM's database, 
and grantees use the site to request funds. The regulations for cash 
advances state, ``The timing and amount of cash advances shall be as 
close as is administratively feasible to the actual disbursements by 
the recipient organization''.
    The DPM system is very efficient for grantees to obtain funds, but 
it does not appear that DHHS or the Regional Offices attempt to 
reconcile grantee expenditures except at six and 12 month intervals by 
utilizing the SF-269 report. At a minimum, the SF-269 should be 
submitted on a quarterly or possibly a monthly basis. This report could 
be developed as an on-line report which would make it simple for the 
Regional Office to compare expenditures with the data from DPM. 
Reconciliation would be straightforward to determine the amount of 
funds being requested by a grantee and the amount that has been 
expended as reported on the SF-269. As an example, if, at the end of 
the first quarter of the grantees fiscal year they have already drawn-
down 50 percent of their annual funding, it would seem reasonable to 
think there may be a serious problem with that grantee. Making this 
change would provide DHHS with the ability to identify potential 
problems early as a means of preventing the financial mismanagement 
from worsening.
    Fiscal and programmatic mismanagement may also be identified during 
the on-site monitoring visit with the Program Review Instrument for 
Systems Monitoring (PRISM) every three years. The PRISM was described 
in previous testimony so there is no need to provide you with the same 
information again. I will say that since the Fiscal Checklist was 
modified in 2004, the instrument has a design which will help to 
identify fiscal problems more effectively than the previous version. A 
potential problem with the PRISM is the shear volume of data that is 
reviewed and processed. The review team rates the grantee on about 670 
performance indicators during the one week visit. If the review is 
focused on critical indicators, both financial and programmatic, 
serious problems would be more readily discernable rather than lost in 
the minutia that is collected.
    An area of programmatic performance that may now be assessed is the 
data that is submitted via the National Reporting System (NRS). These 
assessment data are submitted in the fall and spring of each year for 
the four year old children who will be attending kindergarten in the 
fall of the following school year. Although the NRS was not designed to 
determine the performance of the Head Start program, the data that is 
generated may raise questions regarding curriculum or teaching methods. 
As an example, if the data indicates that children from one Head Start 
program are consistently more than one deviation below the national 
average, it would seem reasonable to contact the program to find out if 
there are reasons for the lower scores. Based on the response from the 
agency, along with other outcome data, it may be determined that 
additional training and technical assistance are required, or it may be 
determined that there is a more systemic problem that may require an 
on-site visit by a Regional Office staff member.
Required follow-up for financial and programmatic mismanagement
    I believe that it is reasonable to expect that Head Start grantees 
that mismanage funds or fail to perform all the requirements of the 
grant will be sanctioned in some manner. I am not describing actual 
accounting errors where something was posted to the wrong account, and 
is later identified and corrected, I am describing serious cases where 
money or assets have been wasted or used for personal gain. In almost 
all cases involving money, the mismanagement can be clearly identified 
from the records; an expenditure is allowable or it is not; money is 
either properly accounted for, or it is not. In either event, the 
appropriate action should be taken as quickly as possible. Failure to 
perform all the requirements of the grant can also be identified and 
must also be acted on as quickly as possible.
    If the mismanagement of federal funds results from apparent 
malfeasance, then serious intervention is required. Although action to 
de-fund a grantee may be difficult and time consuming, it may be 
possible to change the grantee's payment status to protect federal 
funds. I believe that it is possible, with good reason, to terminate 
the grantee's rights to draw-down funds through DPM and to fund them on 
a reimbursement basis. That is, on a weekly or monthly basis, the 
grantee pays all expenses and submits the appropriate documentation to 
the Regional Office for reimbursement. Under this scenario, if the 
grantee can fund the operation up-front, the Regional Office will have 
ample time to review invoices and billing prior to providing 
reimbursement. The Regional Office will also have time to investigate 
the initial incident of malfeasance that came to their attention. If it 
is determined that the grantee did nothing wrong, and that internal 
controls are sound, then DHHS may reinstate the grantee's ability to 
draw-down funds in advance.
    Many of the programmatic problems that are identified have to do 
with non-health and safety issues. As described previously, with over 
670 performance indicators in the PRISM instrument, it is not difficult 
to find areas of non-compliance. All of these issues can be dealt with 
effectively under the current system by having the grantee prepare a 
corrective action plan. The Regional Office can follow-up in writing 
with the grantee until the grantee ensures that the non-compliance have 
been corrected. Depending on the number of non-compliances and the 
seriousness of the issues, the Regional Office may send a staff person 
on site to verify that the non-compliances were corrected.
Increased competition for Head Start Grants
    The independent Government Accountability Office (GAO) has 
recommended that the federal government take steps to allow the 
``recompetition'' of grants awarded to Head Start grantees. It has been 
suggested that all Head Start grants should go out for open competition 
every third year of the grant cycle. In light of the many problems 
identified in Head Start programs during the past year, I understand 
the desire to fix the problem through competition.
    I believe there is a relative agreement that the majority of Head 
Start programs are operating within the regulations and are clearly 
documenting the progress children make during their stay in Head Start. 
Rather than re-compete every Head Start grant at the end of their three 
year grant cycle, at great expense, I believe that re-competition can 
be combined with de-funding activities to remove all of the poorly 
performing grantees. Grantees with serious financial mismanagement 
issues or serious health and safety violations should either undergo 
the de-funding process or be placed on a reimbursement basis of funding 
as previously described. The key is to act swiftly to ensure safety and 
to limit the loss of federal funds.
    Head Start grantees that consistently have generally poor 
programmatic performance due to on-going deficiencies would be likely 
candidates for re-competition. DHHS would be responsible to determine a 
ranking process that is based on audit findings, PRISM findings, and 
any other financial and programmatic data the Regional Office may 
determine. Re-competition would provide DHHS with an additional tool 
that would remove those programs not operating in an efficient and 
effective manner.
    I want to thank the Committee on Education and the Workforce for 
providing me this opportunity to testify before you. As you consider 
legislation to re-authorize the Head Start program, I hope you will 
consider some of the information I have provided in conjunction with 
testimony provided by others. I believe in the goals of Head Start. I 
also believe that when operated in conformance with the laws and 
regulations, coupled with the infusion of new early education research, 
Head Start will make progress in closing the readiness gap that exists 
between some Head Start children and their peers, and all funding will 
reach the children it is meant to serve.
                                 ______
                                 
    Chairman Castle. Good morning. Thank you very much, Mr. 
Siegfried.

STATEMENT OF SCOTT SIEGFRIED, PROGRAM COORDINATOR, MIAMI VALLEY 
          CHILD DEVELOPMENT CENTERS, INC., DAYTON, OH

    Mr. Siegfried. The Miami Valley Child Development Centers 
does not look through one lens to make one decision. Our system 
of assessing child outcomes and program quality is 
comprehensive in its approach. Just as a strong financial 
system requires checks and balances, program quality and child 
outcomes must also have such a system. Although we have a long 
history of collecting and analyzing child outcome data, our 
approach has become increasingly sophisticated in recent years.
    Our objective is to create a system where child outcome 
data can be incorporated into our agency's continuous 
improvement plans. Our model remains flexible to allow for 
adjustments as a result of the relevant research in the field 
as well as the patterns and trends we observe when analyzing 
our data. For example, Breakthrough to Literacy, a research 
project piloted with Abt Associates, resulted from our endeavor 
to strengthen the language and literacy skills of our children. 
This plan incorporates teacher and child directed activities 
that provide a balance of experiences in vocabulary, alphabet 
knowledge, word recognition and phonological awareness.
    Some of our systems, such as National Reporting System, and 
the mandated system through the state called Get it, Got it, 
Go, require the use of a standardized instrument implemented in 
a uniform manner.
    Other tools designed to measure child outcome such as High/
Scope's Child Observation Record, and individual portfolios, 
rely on teacher observation, anecdotal notes, work sampling and 
photography. These ongoing methods of assessment produce 
observation-based data in a familiar setting to children.
    The Early Childhood Environmental Rating Scale and the 
Infant and Toddler Environmental Rating Scale provide holistic 
and quantifiable data and seven subscales related to space and 
furnishings, personal care routines, language reasoning 
activities, interaction, program structure and parents and 
staff. Action plans are developed and implemented after each 
data collection period. These plans address professional 
development, resources and any curricular adjustments to ensure 
maximal child outcomes.
    Parents and staff are partners in the care and education of 
children. Our system therefore supports, educates and guides 
parents to provide meaningful experiences for the children at 
home. To strengthen the role of families as the primary 
educator of their children, we have developed a monthly 
checklist using materials traditionally found in the homes that 
support the content of the child observation record.
    In addition, backpacks are sent home on a regular basis 
with materials, parental strategies and extensions that can 
support the development of critical concepts when that child is 
away from school.
    By relying on multiple systems of child assessment, we are 
better able to make informed decisions regarding curricular 
adjustments at the agency, classroom and individual level. The 
complex nature of measuring the outcomes of children in Head 
Start and their progress demands our relentless commitment.
    Thank you.
    [The prepared statement of Mr. Siegfried follows:]

 Statement of Scott Siegfried, Program Coordinator, Miami Valley Child 
                 Development Centers, Inc., Dayton, OH

    I am pleased to be here this morning to discuss child outcomes in 
the nation's Head Start program.
    Changes in educational requirements and legislative mandates have 
resulted in our development of an increasingly comprehensive child 
outcome measuring system. Our agency's continuous improvement plans are 
adjusted according to our child outcome data. It is important that our 
system remain flexible to allow for adjustments as a result of the 
relevant research in the field as well as the patterns and trends we 
observe when analyzing our data.
    By utilizing the Brigance tool to complete our developmental 
screening process, we begin to understand the teaching strategies 
required to encourage children's learning. Results from this screen 
offer support for early intervention services where applicable.
    In November 2004, author and scientist Dr. Debbie Cryer provided 
training for our support staff on the implementation of the Early 
Childhood Environment Rating Scale (ECERS) and the Infant/Toddler 
Environment Rating Scale (ITERS). This nationally recognized evaluation 
system quantifies several items under the broad categories of Space and 
Furnishings, Personal Care Routine, Language-Reasoning, Activities, 
Interaction, Program Structure and Parents and Staff. As a result of 
classroom observations, action plans are developed to share findings 
with staff and to support their professional growth.
    To strengthen the role of families as the primary educator of their 
children, we have developed a monthly checklist using materials 
traditionally found in the homes that support the content of the Child 
Observation Record (COR). In addition, backpacks are sent home on a 
regular basis with materials, parental strategies and extensions that 
can support the development of critical concepts when that child is 
away from school.
    We began a researched-based pilot project this school year when we 
initiated the Breakthrough to Literacy model in five of our Head Start 
classrooms. This plan incorporates teacher and child directed 
activities that provide a balance of experiences in vocabulary, 
alphabet knowledge, word recognition, and phonological awareness. 
Components include small group reading and writing experiences, 
independent reading and writing, daily writing, book of the week, take 
me home books, and a software curriculum. A research team from Abt 
Associates is conducting the on-going evaluation of the pilot project.
    Although we realize that there are additional national accrediting 
bodies, we have 17 centers that are accredited through the National 
Association for the Education of Young Children (NAEYC). There are an 
additional five centers that are in the self-study process. In this 
design, we are able to document the relationship between the quality 
that accreditation demands and positive child outcomes.
    In our state funded classrooms, we conduct additional assessments 
of children using the Get it, Got it, Go screening tool. This system, 
mandated through the Ohio Department of Education (ODE), measures 
vocabulary, rhyming, and alliteration through a series of picture cards 
presented to each child in a one-on-one setting.
    In the fall of 2004, we completed almost 1,300 assessments using 
the National Reporting System (NRS). The results of this national 
effort allow us to review our agency's progress compared to national 
averages in the domains of language, literacy, and math.
    This school year, the Miami Valley Child Development Centers, Inc. 
has implemented High/Scope's Child Observation Record (COR) in all of 
our state and federal classrooms including our Home Base option. The 
COR categories have been aligned to the Federal Domains and Elements as 
well as the Early Learning Content Standards developed by the Ohio 
Department of Education (ODE). Teachers make on-going observations 
using a paper version of the COR. This information is then transposed 
into the COR-PC software. COR data are collected on October 29, 2004, 
February 25, 2005 and May 13, 2005. In addition, data are collected on 
June 30, 2005 in our year-round sites. The data are maintained in 
multiple databases that allow us to filter information by county, 
program option, and age. Statistics are applied to the High/Scope 
software called the Outcomes Reporter. Reports indicating progress in 
COR categories, Federal Domains and required elements are then made 
available to stakeholders for further analysis and discussion.
    Children's progress is also evaluated by using an individual 
portfolio system. Throughout the school year, children's experiences 
with writing, alphabetic principles and counting are captured through 
anecdotal notes, work sampling and photography. Along with results from 
our more formal child assessment system, these concrete images of 
progress are shared with parents during home visits and parent/teacher 
conferences.
    Miami Valley Child Development Centers does not look through one 
lens. Our system of assessing child outcomes and program quality is 
comprehensive in its approach. Just as a strong financial system 
requires checks and balances, program quality and child outcomes must 
also have such a system.
    [An attachment to Mr. Siegfried's statement follows:]

    [GRAPHIC] [TIFF OMITTED] T0629.009
    
                                ------                                

    Chairman Castle. Thank you, Mr. Marker, thank you, Mr. 
Siegfried. We appreciate your testimony.
    Ms. Mainster, it's your turn.

  STATEMENT OF BARBARA MAINSTER, EXECUTIVE DIRECTOR, REDLANDS 
          CHRISTIAN MIGRANT ASSOCIATION, IMMOKALEE, FL

    Ms. Mainster. Thank you, Chairman Castle, Ranking Member 
Woolsey, and others for having this hearing. We appreciate and 
are all very honored to be part of this exemplary group.
    I wrote testimony, submitted it. It would take me 16 
minutes to read, so I'm not doing that. I'm going to just cover 
some key points. I'm going to tell why there is a Migrant and 
Seasonal Head Start program. I'm going to tell you a little bit 
about the services. I'm going to tell you about the importance 
of collaboration, and I'm going to close with some resource 
issues.
    First of all, my agency, the Redlands Christian Migrant 
Association, is a large agency. We've got about a $47 million 
budget. We serve 6,200 children. We have funding that is like 
quilting. We're a Head Start grantee, but I am speaking to you 
today as a migrant Head Start delegate agency under East Coast 
Migrant Head Start Project.
    The characteristics of our program I think that make us 
exemplary is that we have committed, well trained staff we hire 
from the communities we serve. Our staff are bilingual. They 
can communicate with the parents well, which is critically 
important when two-thirds of the children you're serving are 
infants and toddlers.
    We have very strong parent involvement. We have a board 
that understands its role and takes it seriously and is well 
informed, and we have infrastructure that support the staff 
both fiscally and programmatically. And we use technology 
appropriately. Since we're in rural counties, we really don't 
have much choice.
    Let me just talk about Migrant and Seasonal Head Start. In 
1969, you in Congress, those of you who might have been here 
then, saw the wisdom of a program--nobody up there is that old, 
I know--saw the wisdom of setting aside a separate bit of money 
and recognizing that the migrant and seasonal kids were never 
going to get served in regular Head Start programs for the 
simple fact that they travel.
    Florida, Texas, and California are home-based states. 
That's where the family spends six to 7 months of the year 
working in the crops in those states. Then they travel and go 
up north. We gave you a map with colors so you could see it, 
and I was happy to see where most of you are from, because they 
go to your states. Our families go to South Carolina, North 
Carolina, Georgia, Delaware, Maryland, Virginia, New York, and 
many go Ohio and Michigan.
    When they're in Florida, they're picking oranges, tomatoes, 
strawberries, peppers, squash, cucumbers, et cetera. They do 
the same things up north with the exception of the oranges, 
which become cherries and apples when you go north of the 
Mason-Dixon line; and peaches.
    If Congress had not set aside a special program for 
migrants, they would never get served, because they go to rural 
areas, and when they get to rural areas, the Head Start 
programs and child care programs are full. They follow the 
weather.
    The services that are different is that our centers are 
open from six in the morning till six in the evening usually. 
We serve--and the dates vary, because depending upon the crops, 
you may have to open earlier because the families are back, or 
you may open later. You have to be a very flexible program to 
handle this money and to handle the services properly.
    We serve babies through 4-year-olds, and our parent 
involvement has a lot of ESOL, teaching English as well as 
adult literacy in it. I want to just tell you one quick story. 
One of our children, his name is Rosember, came to us. His mom 
is from Guatemala. She spoke Kanjoval in that country. She's 
totally illiterate, but Kanjoval is a dialect. She learned 
enough Spanish to get by. So when Rosember came to us, staff 
thought he was a little delayed. He wasn't delayed. He simply 
had Kanjoval and Spanish in his head. Then he came to us and he 
also heard English. So his computer just needed some time to 
catch up in his brain.
    And I want you to know that at the end--we also have 
charter schools, so he had the good fortune to go from our 
migrant Head Start program into our charter schools, passed his 
third grade FCAT with a three, which is a very good score, and 
his mom is now attending adult literacy at night and has 
learned to read and write, and Rosember is her tutor.
    So that's the kind of thing we get to do, which is why we 
love our programs.
    Our collaborations are critical. In rural areas, you either 
collaborate or die. We have wonderful collaborations with 
Agriculture. Most Migrant and Seasonal Head Start programs do. 
We collaborate with our state child care. The quilting allows 
us--our state has set aside a pot of money actually for 
seasonal farm workers out of their child care allocation, which 
I believe we're the only state to do that. And health services, 
of course, the Governors Literacy Council and the Mexican 
consulate are all our partners.
    The resource issue that I want you to look at is that we 
are only serving about 19 percent of the children who are 
eligible. We are funded out of a 13 percent set-aside in HHS. 
We would really appreciate it if--Congressman Grijalva, thank 
you for your work last year. Also tell your colleague, Senor 
Hinojosa and Mr. Ehlers, we appreciated their work. But we now 
need to tie down, and we'd like a 5 percent set-aside so that 
we can count on having some programs that don't have to worry 
about funding every year.
    We also are concerned about some flexibility in standards, 
particularly for short-term programs up north in terms of 
getting everything done, if you're only running a 3-month 
program, you're kind of asking people to fail.
    I want to thank you, Congressman Castle, for going to our 
program last year. I understand you enjoyed seeing brain 
development in action with those toddlers. We appreciate very 
much your time in doing that, and we appreciate the Committee's 
time in inviting us here today.
    [The prepared statement of Ms. Mainster follows:]

 Statement of Barbara Mainster, Executive Director, Redlands Christian 
                   Migrant Association, Immokalee, FL

    Thank you Chairman Castle, Ranking Member Woolsey and honorable 
members of the Education Reform Subcommittee for the opportunity to 
submit testimony and contribute to this hearing on Head Start as you 
begin the reauthorization process.
    While I administer a range of Head Start and education programs--my 
comments this morning will focus on the unique challenges faced by 
Migrant and Seasonal Head Start Programs and how we have overcome them 
in order to deliver critical education and child development programs 
and services to some of the most vulnerable children in our country--
children of migrant and seasonal farm workers.
Why Migrant Head Start?
    Migrant and Seasonal Head Start was started in 1969 as a direct 
response to the unique seasonal needs of migrant farm worker families--
to ensure that these families and their children can enjoy the same 
advantages made available to other low income children through Head 
Start as they move across the country with their families to pursue 
their work.
    Most migrant workers stay in Florida, Texas or California, called 
home base states, from October/November until May/June. Then they leave 
to find work moving north. When cold weather sets in there, they come 
back to their home base. A map is attached which gives a view of the 
most common migrant streams.
    To illustrate, one of our families, Daniel Jaime, works in the 
oranges in Florida, then goes to Ohio to work in the cucumbers and on 
to Michigan to work in cherries, before returning to Florida in October 
or November, depending on the weather and availability of work in both 
states. His children are served in one of our Migrant Head Start 
Centers in Polk County, and when he leaves us, he takes their records 
containing their educational outcome data, and health data with him. 
When he arrives in Ohio, the Texas Migrant Council Center he attends 
there picks up where we stopped and continues the services without 
unnecessary duplication. A web based data transfer system is being 
piloted right now and will make even more data available faster in the 
near future.
    Ideally, MSHS programs would provide seamless Head Start services 
to eligible families as they move from state to state to ensure that 
migrant children are given the same advantages that children attending 
regular Head Start enjoy. This is what MSHS programs strive for because 
we know that conventional child care is not available to these families 
and for the most part regular Head Start is unable to address the 
particular needs of these families.
    In most states, local childcare resources are not available at the 
times when migrants come into a community, especially for infants and 
toddlers. Regular Head Start centers recruit for the fall in the 
preceding spring and usually follow a school calendar. Rural areas in 
our country all suffer from lack of resources and facilities, and of 
course, the migrants all work in rural areas. When child care centers 
are not available, parents have no choice, but to take the children to 
the fields where they are exposed to pesticides, hazardous equipment, 
extreme heat and other health dangers. This is not acceptable to 
agricultural businesses, or to child advocates. In addition, the 
primary language spoken by most farm workers is Spanish, and programs 
need to have bilingual staff available in order to be able to 
communicate. Services need to be available from 6 am until 6 pm, and 
sometimes on Saturdays, in order to provide care for the hours both mom 
and dad are working. Like the immigrants before them, the migrant 
families believe in hard work and have strong family values. They 
participate in opportunities to better their own education, learn 
English and how to help their children be successful in our public 
schools.
    MSHS programs respond effectively to these challenges. We are 
grateful Congress recognized the need for a Migrant Program Branch in 
Washington to address the mobility issues and other unique needs of 
this special population.

Background on RCMA
    Since 1965 Redlands Christian Migrant Association has provided 
quality child care for migrant and rural poor children throughout the 
State of Florida. RCMA began in the Redlands area of Dade County where 
a group of Mennonites provided care for farm worker children, so they 
would not be taken to the fields. Today we serve over 6200 children in 
seventy programs including 1704 in the Migrant and Seasonal Head Start 
Program, 343 in Early Head Start and 952 in Regional Head Start. An 
enrollment report showing all the children served in our centers/
schools on February 5, 2005 is attached to this testimony. The 
information is broken down by county and funding source and documents 
the waiting list of 2078 children in need of services. You will note we 
serve children with many different funding sources, rather like a 
patchwork quilt, designed to ensure that as many as possible of the low 
income children who live in the communities can qualify for services. 
RCMA grew as a result of needs expressed to us by migrant parents, by 
farmers, by school districts, by church groups and by our State child 
welfare agency.
    In addition to being an Early Head Start and Head Start Grantee, 
RCMA is a delegate agency of East Coast Migrant Head Start. East Coast 
Migrant Head Start, along with 25 other grantees, serve nearly 32,000 
migrant children and 2,500 seasonal farm worker children annually, 
operating in 39 states in every region of the country. As you may know, 
Migrant and Seasonal Head Start programs were the first Head Start 
programs to serve infants and toddlers. Today, two-thirds of the 
children in the program are infants and toddlers.
    In Florida, we serve farm workers who spend the fall, winter and 
spring harvesting our nation's citrus crops, strawberries, tomatoes, 
squash, peppers, cucumbers, corn, celery, radishes, melons, eggplant, 
cauliflower and many other vegetables. They leave us after the harvest 
and go to Georgia, South Carolina, North Carolina, Virginia, Delaware, 
Maryland, Pennsylvania, New Jersey, Ohio, Michigan, and Indiana to do 
the same jobs, with apples, peaches and cherries substituting for 
oranges. It is hard work and requires special skills. Most farmworker 
families earn less than $10,000/year and very few have health benefits, 
according to a study submitted to Congress in 2000 by the United States 
Department of Labor.

RCMA as a Collaboration Model in Community Partnerships
    When a program operates in rural areas, collaboration is not only 
necessary, it is expected. I would point to the partnerships that we 
have forged with governments, private industry and others to be at the 
core of our success.
    RCMA has been extremely successful in forging a partnership with 
agriculture. Long ago we realized that the agricultural employer and 
farm worker had more in common than not. For example, both farmers and 
their workers agree on the need for child care, health services, 
housing, and pesticide training. As a result, RCMA has received support 
in the form of buildings for child care centers, land on which to 
build, monetary support to draw down matching federal dollars, and 
advocacy with the State Legislature, resulting in a State child care 
set aside for children of farm workers. Other important partners 
include the school systems in the twenty counties in which RCMA 
operates. We work together to prepare children for a successful 
kindergarten transition, help with the enrollment process and 
orientation of parents, and jointly serve preschool children with 
disabilities. They, too, have supplied facilities in which to operate 
our Head Start programs. Local health centers and public health 
departments work with us to assure medical services and refer children 
for our services. Of special importance are the 0 to three year olds, 
who benefit tremendously from the early intervention we are able to 
provide. Therapies are provided in our centers. In return, the agencies 
know they can count on our staff to help translate or transport special 
cases for critical care. It is a win/win situation. The local Early 
Learning Coalitions in our state are now working with us to ensure that 
migrant children will be served in the Voluntary Pre K program 
beginning this year. In order to meet the mandated number of UPK hours, 
our centers will adapt our curriculum as needed. Funding received from 
the state for these four year olds will allow us to serve more infants, 
toddlers and three year old children in our Head Start centers. 
Churches are also active partners with us. They help provide the 
emergency food needed when families arrive with little money, or when 
weather does not permit families to work, such as during our recent 
hurricane season. The Governor's Family Literacy Initiative and the 
Mexican Consulate are very important collaborators in helping us 
provide family literacy programs in our centers. Funding, software, 
materials and guidance are all part of those relationships. In return, 
our centers are available on weekends for programs or services the 
Consulates may wish to bring to the rural communities.

RCMA as a Leader in the Field
    I credit our high quality services and solid track record to our 
philosophy and practice of bringing farmers and farm workers together 
on our Board, along with experts in early childhood, health, business, 
banking, the law, and housing.
    Included in RCMA's philosophy is that we hire from the communities 
served. Staff who know what it is to stoop and pick crops, to travel in 
search of work, to start school late each fall and leave early every 
spring--those are the people in charge. They ensure our programs are 
comprehensive in nature, prepare children to succeed in school and meet 
the needs of the families we serve. RCMA provides on going training and 
educational opportunities to help ensure their continued success. We 
are committed to finding and maintaining the most qualified staff and 
in rural areas, this is one of our most serious challenges. The length 
of the time they are employed each year further exacerbates the 
problem. To compensate, we have adapted a model with one early 
childhood professional per center, who then trains the paraprofessional 
staff on an ongoing basis. In addition, our benefits structure is 
designed to continue health insurance during the period of lay off, 
which can be up to five months long each year. Collaborations with 
community colleges to bring classes closer to the communities we serve 
is beginning to yield results. Of most importance are the outcomes we 
are achieving, in spite of the lack of degreed teachers. Attached to 
this testimony is data on our results.
    Former farm workers become leaders in their communities and strong 
role models for families. Since they are trusted and respected by our 
families, they have the ability to create and instill an awareness of 
the importance of education, both for the children and for their 
parents. Head Start has long recognized that unless very low income 
families were helped to change and develop new skills, and raise their 
own literacy levels, that long term gains for the children would not be 
sustained. The importance of reading to their children and for their 
own education is key. Children live in families, and unless parents are 
sold on the importance of being an advocate for their children as they 
go through school, expecting high achievement from their youngsters, 
then many of the gains will be lost.
    Former farm workers are found at all levels of our organization. 
They are paired with professionals to form teams which have experience 
and expertise in early childhood, health, and social work. Each of 
RCMA's sixteen individual geographical areas around the state is led by 
a former farm worker staff, some of whom have achieved degrees.
    In addition, we embrace high quality early childhood and expect all 
our centers to become accredited by the National Association for the 
Education of Young Children. At the present time, 76% of all our 
centers have attained that recognized seal of excellence. High quality 
and comprehensive services with the involvement of parents is what RCMA 
believes Head Start is all about and that is what we continue to 
practice.

Migrant and Seasonal Head Start Challenges
    Despite our best efforts to collaborate and stretch current 
resources, we still maintain waiting lists for services and hundreds of 
children in many parts of the country go unserved.
    In fact, families that leave our program in Florida and migrate up 
north to states like North Carolina, Alabama, Indiana and Ohio often 
return in the fall and share with me that their children's names sat on 
a waiting list all summer. Based on a 2001 Head Start Study, 
(Descriptive Study of Seasonal Farmworker Families--September 2001) 
which was requested as part of the last Head Start Reauthorization bill 
(Coats Human Services Amendments of 1998 P.L. 105-285), only 19% of the 
eligible migrant and seasonal children in our country were being 
served.
    Migrant and Seasonal Head Start programs are funded along with 
Indian Head Start, children with disabilities, technical assistance, 
program review, and research demonstration out of a 13 percent 
statutory set-aside from the annual Head Start Appropriation.
    Existing MSHS programs maintain significant wait lists and, in many 
areas of the country, there are no MSHS programs in operation to 
provide services to migrant farm worker children when they move into a 
state. Despite the documented unmet needs of this population, funding 
for Migrant and Seasonal Head Start as a percentage of the overall Head 
Start appropriation has not grown--in fact, according to our 
calculations, it has been reduced slightly since 2003. I have attached 
a chart to my testimony which shows MSHS funding as a percentage of the 
overall Head Start appropriation.
    We urge the Committee to look at ways by which additional resources 
can be directed to meet the needs of migrant and seasonal children that 
are currently unable to move off wait lists and access services to keep 
them out of the field and give them the important step up that Head 
Start can provide.
    The National Migrant and Seasonal Head Start Association, of which 
I am a member, put forward what we thought was a modest proposal during 
the last reauthorization debate--that a funding floor of not less than 
5% of the total annual Head Start appropriation be set-aside for MSHS. 
According to the calculations used in the 2001 HHS study, this would 
enable us to serve about 25% of the eligible migrant and seasonal 
children.
    While I want to thank several members of this Committee for their 
work to bring more attention to this issue- particularly Congressmen 
Hinojosa, Grijalva and Ehlers-we still find ourselves well short of the 
resources needed to properly serve these children.
    I urge this Committee to address this resource issue again as you 
consider reauthorizing the underlying Head Start Statute and I request 
you put in place a funding mechanism whereby we can be assured that 
additional resources will be directed to address the documented needs 
of MSHS programs. I would be happy to work with you and your staff in 
this effort.
Closing
    I'd like to close by sharing just one success story as a way to 
illustrate how our Migrant and Seasonal Head Start programs impact the 
lives of children and parents served. Many of our former parents and 
children are now staff. One is a woman who came to us as a migrant farm 
worker, high school dropout, married and the mother of three 
rambunctious children. She was active in the Center's activities, 
served on the Policy Committee and Council, and then, when her children 
went on to school, joined our staff. While working full time and 
raising three children, she attained a GED, and then her two year and 
four year degrees. She and her husband own a nice home, and her three 
children are all in college at this time. She is now RCMA's Migrant 
Head Start Manager, responsible for ensuring all the contractual and 
performance standards are met for the 1704 migrant children entrusted 
to our care.
    I understand, Chairman Castle, that you visited a Migrant Head 
Start Center last year and have experienced first hand how clear brain 
development becomes when observing a happy toddler. Thank you for 
taking that time and for the opportunity all of you have provided for 
us to be here today.
    [Attachments to Ms. Mainster's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T0629.007
    
    [GRAPHIC] [TIFF OMITTED] T0629.008
    
                                ------                                

    Chairman Castle. Well, thank you. And we appreciate you 
being here, Ms. Mainster, and your testimony here today.
    Ms. Cunningham?

 STATEMENT OF GAYLE CUNNINGHAM, EXECUTIVE DIRECTOR, JEFFERSON 
  COUNTY COMMITTEE FOR ECONOMIC OPPORTUNITY CHILD DEVELOPMENT 
                    SERVICES, BIRMINGHAM, AL

    Ms. Cunningham. Good morning. Chairman Castle, 
Congresswoman Woolsey, and distinguished Members of the 
Committee, it is an honor to be here. And I thank you for this 
opportunity to share about our program. We serve 1,431 Head 
Start children and 148 pregnant women, infants, and toddlers in 
Early Head Start.
    Head Start is more than a Federal program. It's more than 
the best thing that this nation does for its neediest children. 
For many children and families, Head Start is a lifeline. 
Sadly, we have a 650-child waiting list for our Early Head 
Start program, and more than 1,900 children are on the waiting 
list for our Head Start program.
    In addition to these Head Start-eligible children, more 
affluent parents regularly ask us if they can pay for their 
child to participate in our great Head Start program.
    We promote excellence by meeting and exceeding Head Start 
performance standards and using the Head Start Child Outcomes 
Framework to guide our teaching and other services, by 
providing staff with continuing educational and career 
development opportunities to improve their knowledge and 
skills, and by creating collaborations with many agencies to 
address the wide range of needs faced by our Head Start 
families and children.
    The Head Start performance standards, together with the 
Child Outcomes Framework, assure that our program staff attend 
to each area of children's development, support family 
development and provide optimal program management and 
accountability.
    Our planning and quality improvement process uses the Head 
Start performance standards as its base. The Child Outcomes 
Framework helps us to use the most appropriate observation and 
assessment procedures and instruments. The data from these 
assessments helps us to make adjustments in our curriculum and 
daily schedule, to plan in-service teacher training, and to 
make purchase decisions for classroom curriculum resources. The 
framework has helped us to make our teaching and other work 
with children more intentional to better achieve Head Start's 
child outcome goals.
    We are committed to career development for our staff. 
Eighty-four percent of our teachers have associate degrees or 
higher. As staff members have obtained higher credentials, we 
could pay for their training, increase compensation and 
maintain the teaching staff that we have invested in, with the 
Head Start quality dollars that sadly no longer come to us.
    Degrees are important, but ongoing professional development 
is also key. Based on the large body of research on effective 
teaching practices and curricula, we have developed a unique 
system of supports for classrooms and teachers that includes 
education specialists assigned to each cluster of centers to 
provide day-to-day staff development and assistance with 
planning; a program-wide, theme-based curriculum with 
accompanying theme boxes of resource materials; a resource 
center where staff can obtain and prepare materials for their 
classrooms, for teaching and for their college coursework; and 
a cadre of ``mentor teachers'' who provide peer support.
    Ensuring that children receive services and not just 
referrals is another key to school readiness. Each child is 
assisted to have a medical home, a provider that they can go to 
regularly for checkups and illnesses. We help parents to take 
care of any health needs their children may have while they're 
in Head Start, and we also provide dental and visual screening 
and help children get dental services or glasses.
    We also identify mental health problems and provide 
assistance to parents and teachers to address them. We have 
extensive collaborations with a wide range of medical, dental, 
psychological and social services providers. And we have 
assistance from the local school systems to provide special 
services to children with disabilities and their families.
    We help parents to learn parenting skills to better support 
their children's learning and development, to learn more about 
resources in their communities, and to participate as advocates 
for their children, families and neighborhoods. For eleven 
years, we have provided special programming for fathers, 
encouraging them to play a strong role in their children's 
lives both at home and at our centers.
    A growing number of grandparents are raising our children. 
Several years ago we began a support group for them that 
provides monthly sessions on a range of topics, occasional 
outings and individual assistance. Because most of our parents 
work, we provide before and after school care, and Head Start 
quality enhancement funding enabled us several years ago to add 
Summer Head Start for those children.
    We collaborate with public schools to ensure that children 
are ready for kindergarten and that they and their families 
experience smooth transitions into Head Start. And we've worked 
with those schools to determine their expectations for 
kindergarten and to arrange our curriculum and in-service 
training for teachers so that children are better prepared for 
later schooling.
    Thirteen of our Head Start classrooms are located in public 
schools in seven different public school systems, and most of 
our classrooms are located in buildings donated by either 
school systems or Catholic parishes.
    All of the services I've described are also provided to 
Early Head Start infants, toddlers and pregnant women, but we 
have six children waiting for every slot that we have in Early 
Head Start.
    So how do we know that we're successful? The data we 
collect as we assess our children tells us that our children 
are making huge strides. Kindergarten teachers who receive our 
Head Start children tell us that they are better prepared for 
school than almost any others in their classes. Principals and 
superintendents ask us to add classrooms to their schools and 
systems. And we regularly hear from parents that their Head 
Start graduate children are on honor rolls, winning awards, 
graduating from high school, going to college and to graduate 
school and contributing to our communities and to society.
    A local Birmingham bank vice president is a Head Start 
graduate, as are two local city councilmen. Head Start truly is 
our national child development laboratory, and it deserves far 
more credit for all that it has contributed to the large field 
of early childhood education. We at JCCEO take that title 
seriously, and we seek in all that we do to find the most 
effective ways to serve each child who comes to our program and 
each family that brings them.
    Head Start truly is our nation's best gift to our neediest 
families. Our goal is to make sure that it is a gift that works 
well and one that lasts.
    Thank you.
    [The prepared statement of Ms. Cunningham follows:]

  Statment of Gayle Cunningham, Executive Director, Jefferson County 
    Committee for Economic Opportunity Child Development Services, 
                             Birmingham, AL

    Mr. Chairman Castle, Congresswoman Woolsey, and distinguished 
members of the committee. Head Start is very, very special. For many of 
the children and families that I have worked with in Head Start, it is 
more than a federal program, more than the best thing this nation does 
for its neediest children: for many children and families it is a 
lifeline.
    Let me share with you an email that I received just last Sunday.

        To Whom It May Concern:

        My name is Melissa Johnson, my son is Christian Tyler Johnson. 
        He attends Tarrant Head Start center. I am writing to let you 
        at the main office know of the OUTSTANDING and WONDERFUL 
        teachers and staff you have. Not only has my son enjoyed his 
        two years at Head Start but he is excited and most of all ready 
        for Kindergarten. Everyday he comes home with something new 
        that he has learned.

        Not only has my child grown and matured from the program but so 
        have I. I had him when I was sixteen so I thought the teachers 
        would teach him. They have done a great deal but they showed me 
        that the learning has to start from the home.

        I apologize for the lengthy letter I just love the Head Start 
        program, and I wanted to THANK everyone involved. I know you 
        have lots of work to do so thank you for your time.

        Sincerely,
        Melissa J. Johnson

    We know there are many similar stories in every one of your 
districts, in every Head Start and Early Head Start program across this 
country.
    My name is Gayle Cunningham and I appreciate and am honored to have 
this opportunity to testify before you today. It was my privilege to be 
the director of the Head Start program at JCCEO in Jefferson County, 
Alabama, where the largest city is Birmingham, for eighteen years, from 
1986 until 2004. Since 1990, I have also served as Executive Director 
of JCCEO, the Jefferson County Committee for Economic Opportunity, the 
Community Action Agency for our county. Our Head Start-Early Head Start 
program serves 1431 preschoolers, and 148 pregnant women, infants, and 
toddlers.
    To meet our goal of providing the best possible Head Start for the 
children and families that we serve, we have worked on every aspect of 
the program, and our efforts, a true collaboration between our agency 
Board, our staff, our parents, our community, and the Region IV and 
Bureau Head Start staff, have resulted in a highly functioning program 
that seeks higher and higher levels of quality programming for children 
and for families.
    Excellence is our goal. Excellence in supporting and promoting 
children's development and learning; excellence in our staff and our 
services; and excellence in supporting families to be successful. So 
how do we strive for excellence?

Meeting Standards:
    The Head Start Performance Standards have been our foundation and 
they were critical to improving our program. The Head Start Performance 
Standards are comprehensive and therefore ensure that we look at all of 
the conditions that support children's learning, their social, 
emotional and physical development, and family success.
    Our internal, yearly, quality improvement and planning process uses 
the Head Start Program Standards as its base. The Standards are used 
for a program-wide self-assessment at the beginning of each calendar 
year. The findings from this assessment are submitted to ``Program 
Quality Improvement Workgroups'' that include staff, policy council 
members and other parents, board members, and community 
representatives. Each workgroup focuses on a different program service 
area, and reviews all program documentation related to that area. The 
workgroup's recommendations for improvements then go to the management 
team for deliberation, and the accepted recommendations are implemented 
during the next program year.
    Tri-annually there is an in-depth review of our program, and every 
Head Start program, by a Federal monitoring team, using an instrument 
based on the Head Start Performance Standards. We believe that these 
reviews, in combination with our yearly self-evaluations, are an 
important factor in maintaining ongoing program quality.
    Head Start's Child Outcomes Framework has proven an invaluable tool 
for improving the quality of our classroom services to children. It is 
comprehensive, multidimensional, and appropriate for young children, 
focusing on the whole child. It has provided the framework for a 
multitude of decisions that have improved our program for children. We 
used it to help us determine, and create, the most appropriate 
observation and assessment procedures and instruments for our children. 
The data from these assessments have been used to help us make 
adjustments in our curriculum and daily schedule, plan in-service 
teacher training, and make purchase decisions for curriculum 
enhancements for our classrooms, such as additional math materials. The 
Framework has helped us to make our teaching and other work with 
children more intentional, so that we can better achieve Head Start's 
child outcomes goals.

Staff and Teacher Quality:
    We know that the knowledge and skills of our directors, service 
area managers, teachers, and all of our staff are critical to our 
success. That is why we are committed to career development for all of 
our staff, finding and providing opportunities for both education and 
in-service training, with a special commitment to teachers and teaching 
after all, that is where our children are.
    In 1986, we had nine Child Development Associate credentialed 
staff, mostly in management, and no other appropriate credentials among 
our teaching staff. Today, 84.62% of our teachers (66) have an 
Associate's degree or higher. Most began with us with no credentials 
and, through Head Start, were able to earn their CDA credential, and 
then we assisted them to build upon it to earn their Associate's 
degree. Six more of our teachers will have earned their Associate's 
degrees by August, 2005.
    Eight-nine (89) of our teacher aides have Child Development 
Associate credentials, which we consider the basic credential for 
working in the classroom and the first step towards the Associate's and 
Bachelor's degrees. We expect a teacher aide to begin working on 
qualifying for the Child Development Associate as soon as possible 
after beginning employment. Six teacher aides have Associate's degrees. 
As staff members obtain higher credentials, increased compensation is 
provided to reward and acknowledge achievement and increased skills, 
and to maintain the teaching staff that we have invested in, again, 
thanks to funding from Head Start.
    How did we accomplish these career development goals? Primarily, it 
was the receipt of Head Start quality enhancement funds over the years 
that made it possible. With those funds, we could provide tuition and 
book scholarships, provide release time and substitute teachers to 
cover classrooms while teaching staff were in school, and increase 
compensation once credentials were earned. On average, it has taken our 
teachers six years to obtain their Associate's degree. Because we know 
that better child outcomes are associated with higher degrees, we have 
worked with others in the state, including the Alabama Head Start 
Collaboration Office, to develop articulation arrangements to move our 
teaching staff from the Associate's to the Bachelor's degree, and we 
learned last week that such an opportunity will soon be available to us 
with a local university. We don't, however, know how we will provide 
the scholarships and other supports that will be needed to assist our 
staff to earn Bachelor's degrees, or how we will adequately compensate 
them once they have earned the BA. This is a worthy goal, but it would 
require new, additional Head Start resources for teachers to go back to 
school, for programs to provide release time and substitutes, and for 
compensation increases that are at least comparable to those of 
kindergarten teachers with similar degrees and experience so that our 
teachers remain with us in Head Start.

Effective Teaching Support:
    We believe that teachers need more support on a regular basis, in 
addition to credentials and degrees. Ongoing quality professional 
development is key. Based on the large body of research on effective 
teaching practices and curricula, we have developed a unique system of 
supports for classrooms and teachers that includes: Education 
Specialists assigned to each cluster of centers to provide day-to-day 
staff development and assistance with planning for teaching staff in a 
role that is completely separate from supervision; A program-wide 
theme-based curriculum with supporting theme boxes of materials that 
rotate to provide an array of teaching resources to classrooms; A 
resource center where staff can obtain and prepare materials for their 
classrooms, for teaching, and for their college coursework; and a cadre 
of ``mentor teachers'' who provide peer support to other teachers. 
These mentor teachers were selected because they were effective in 
their own classrooms, and they also demonstrated the capacity to work 
well with and support other adults. They each attended an eight session 
course on mentoring, participate in monthly mentor teacher training 
sessions and meetings, work with a protege teacher, assist with 
program-wide teacher training, and receive a monthly stipend for these 
additional responsibilities.
    Again, the importance of the comprehensive Head Start Program 
Performance Standards and the Child Outcomes Framework must be 
emphasized. These assure that in our service delivery and in our 
training and support of staff, we attend to each area of a child's 
development--because learning to read, and to count, do not occur in 
isolation from a child's other areas of development, or in isolation 
from their families.

A Community Program:
    Head Start is unique because it provides an opportunity to lift 
entire families and communities to better economic, educational, and 
personal lives. We collaborate with a large network of public, private, 
and faith-based community resource providers to help us meet the needs 
of our participants. To improve our work with families, we used Head 
Start Quality Enhancement funding to lower family services worker 
caseloads to two-to-three classrooms each. This enables us to give each 
family more attention and to help them with the wide range of issues 
and needs that confront low-income families, especially when there is a 
crisis. We have helped families get better and safer housing, in 
several instances helping them to purchase homes through Habitat for 
Humanity; we have helped families that have been evicted or burned out, 
helping them to find temporary and then permanent housing; we have 
helped families when they or their children have medical emergencies; 
and much, much more.
    We help families to assess their current situations, set goals, and 
take concrete steps to achieve them, be they more schooling, job 
training, better jobs, better housing, or more food in the house. Self-
sufficiency is our goal for every family that we work with. School 
readiness, especially for the low-income children in Head Start, is 
about letters and numbers and colors and shapes, but it also includes 
so much more. We assure that each child has a medical home-a provider 
that they go to regularly for check-ups and for illnesses, and we 
assist parents to take care of any health or medical needs they might 
have while they are in Head Start. We provide dental and visual 
screening and then assist parents to obtain any needed dental services 
or glasses. We identify mental health problems and provide assistance 
to help parents and teachers address them. Our extensive collaborations 
with a wide range of medical, dental, psychological, and social 
services providers enable us to address these needs. And, with 
assistance from local school systems, we provide special services to 
children with disabilities and their families, making at least ten 
percent of our enrollment opportunities available to them.
    We also assist parents to learn parenting skills, to better support 
their children's learning, to learn more about resources available in 
their communities, and to participate in their communities as citizens 
and advocates for their children, families, and neighborhoods. We 
provide special programming for our children's fathers, encouraging 
them to play a strong and effective role in their children's lives, 
both at home and as volunteers in our classrooms and centers. We call 
our father involvement project ``CHIEFS'' and it is now in its eleventh 
year.
    In response to the growing number of grandparents raising young 
children in our program, we began a support group for grandparents 
several years ago, named ``GEMS'', that provides monthly sessions on a 
wide range of useful topics, occasional field trips, and individual 
assistance when needed. Grandparents raising young children are a 
growing phenomena in our communities, and their needs are unique and 
sometimes difficult to address through regular Head Start resources.
    Most of our parents work, and it is sometimes a challenge to make 
arrangements to bring their children to our centers after 7:30 a.m., or 
pick to them up when our program day ends at three. So we assist them 
by providing before and/or after program care for approximately 200 
children through a collaboration for vouchers with our local childcare 
(block grant) subsidy provider, along with private payments by parents 
not able to obtain vouchers. (The waiting list for vouchers in 
Jefferson County is 3000 children long.) Several years ago Head Start 
quality enhancement funding enabled us to add ``Summer Head Start'' for 
the children who participate in after school care to our program, so 
this group continues with us until August, receiving a full day of 
learning and care while their parents work.
    Public schools are an important part of our families'' communities, 
and we collaborate with them in a variety of ways to assure that our 
children are ready for kindergarten and that they and their families 
experience a smooth transition from Head Start. We have worked with 
public school systems to determine their expectations for children 
entering kindergarten and arranged our curriculum and in-service 
training for teachers to both prepare children for kindergarten and 
beyond, and to provide appropriate pre-school education. Thirteen of 
our Head Start classrooms are located in public schools in seven 
different school systems. Most of our other classrooms are located in 
school buildings no longer in use by the systems or by Catholic 
parishes, and provided to our program at no cost. We have a special 
partnership with the Birmingham Public School System, equally sharing 
three pre-k classrooms for a Head Start-Pre-K partnership. Most of our 
disabilities screenings and services are provided by our partner school 
systems. And each participates in a variety of transition activities 
for children and parents as the end of the program year approaches.
    All of the services that I have described are also provided to our 
Early Head Start infants, toddlers, pregnant women, and their families, 
with particular attention to the special needs of pregnant women and 
babies. The need for infant-toddler care and learning opportunities in 
our community is acute, and our small program, serving about 100 babies 
and toddlers, meets only a fraction of the need. There are more than 
six children on our waiting list for every Early Head Start slot that 
we are funded to provide.

How Do We Know We are Successful?
    So how do we know that all of this works? There are many ways. The 
demand for our program is enormous. In addition to the more than 650 
child waiting list for Early Head Start, there are more than 1900 
children on our waiting list for Head Start. In addition to these Head 
Start eligible children, more affluent parents regularly ask us if they 
can pay for their child to participate in our Head Start program.
    Kindergarten teachers who receive our Head Start children tell us 
that they are better prepared for school than most others in their 
classes, and principals and superintendents ask us to add classrooms to 
their schools and systems. We have had a classroom in one local system 
for two years and the superintendent recently met with our Head Start 
director to tell her what a difference the school staff sees in the 
children who have attended Head Start. He wants another classroom.
    We regularly hear from parents that their children are on honor 
rolls, winning awards, graduating from high school, going to college, 
going to graduate school, and contributing to our communities and to 
society. A local bank vice president is a Head Start graduate. Two 
local city councilmen are, too. And another graduate of our program has 
earned his Ph.D. and is the director of a local Head Start program and 
the childcare subsidy program that serves our area.
    The data that we collect as we assess our children at the 
beginning, middle, and end of each program year also tells us that we 
are successful. Our children make huge strides while they are with us, 
and our Child Outcomes data documents and verifies this, as do our own 
observations when we visit our wonderful classrooms.
    Our program has participated in a number of local and national 
research and evaluation projects, always seeking to both benefit by 
learning more about our program's effectiveness and to contribute to 
the body of knowledge about what works best for Head Start, young 
children, and their families. With every measurement we learn that our 
program is making a significant difference as we work with our Head 
Start children and families, the children and their families in 
Birmingham and Jefferson County, Alabama, who are most in need.
    Head Start truly is our National Child Development Laboratory, and 
the program deserves much more credit for all that it has contributed 
to the larger field of early care and education. We at JCCEO take that 
title seriously, and seek in all that we do to find the most effective 
ways to serve each child who comes to our program, and each family that 
brings that child to us. Head Start truly is our nation's best gift to 
our neediest families. Our goal is to make sure that it is a gift that 
works well, and one that lasts.
                                 ______
                                 
    Chairman Castle. Thank you very much, Ms. Cunningham. 
Before we go forward, I don't know if there's any Member here--
we're going to have a motion to adjourn on the floor. We're all 
going to have to go vote in seven or eight or 9 minutes. Is 
there anyone here who won't be able to come back, would like to 
ask their questions now? Or do you want me just to go ahead and 
start?
    I'll go ahead and start, then. But if somebody needs to 
finish before I leave, let me know.
    Actually, my questions are too general for everybody to 
answer everything. So you're going to have to sort of limit 
yourself here, if you will, because I want to get in a few 
things.
    I'm worried about what we're doing here at the Federal 
level. Let me congratulate each and every one of you, first of 
all, you know, for running exemplary programs. You wouldn't 
have been here if you hadn't been doing that. And you're doing 
it within the framework of the law and the regulations in 
dealing with HHS as far as this is concerned. A couple of you 
used the expression ``quilting,'' I think, meaning you're 
running a variety of programs, and that's generally true of 
Head Start providers, which is fine.
    But I want to sort of look at it from that point of view; 
how we can run exemplary programs, and what is it in the law or 
in the regulations that may in some cases restrict you or 
perhaps allow some of the other problems which exist out there 
that perhaps we could address as we take up our new 
legislation, which is what we're doing.
    So let me just start with that. As you know, we have the 
basic law here. You probably deal mostly with the regulations, 
if I had to guess, the administration of children and families 
and the Head Start Bureau, and there's a series of performance 
standards and forms you have to fill out and that kind of 
thing, some of which--and frankly, we had an analysis of this, 
and some of it was critical. And so I want to see how it is out 
in the field.
    So my question to you is, in doing what you're trying to 
do--and you're doing everything from migrant programs to 
combining it with school programs. You're doing a lot of things 
in your different areas. My question is, is there anything in 
the law or the restrictions that--and you can answer this 
generally. You don't have to cite statute numbers or whatever--
that you think is a block to continuing progress in terms of 
what you are doing? I know that's a very general question, and 
I'm looking for specific answers, but I'm interested in that.
    Any volunteers? Dr. Daeschner.
    Dr. Daeschner. First of all, thank you. I think that is an 
essential question. I'm different in that I run a district, and 
I have like these 5,400 early childhood. And I satisfy lots of 
different standards.
    As an example, and most you just allude to it, there's 
almost 1,700 standards connected with Head Start. And they're 
very specific. I'm not too sure they're not specific for a 
reason.
    Our state has some like that, but they're somewhat 
different. So when you work in a district, you're faced with 
not necessarily competing, but how do you fit one and the other 
and satisfy all those? Let me give you one good example, and I 
alluded to it earlier. These child restraints. A great example 
is I run all these buses. I have 850 buses that I run on a 
three-tiered system. And they pick up my high school kids, it's 
our elementary and then our preschool. And you can imagine we 
have to use all the buses to do all that.
    It's almost prohibitive to put these seat restraints on, 
because it reduces my numbers. The buses are absolutely safe. I 
have to follow the Kentucky bus regulations. And I will give 
you one particular example. We had a month ago a car run into a 
back of a bus. The car caught fire. By the way, the driver took 
off. The front of the car caught fire underneath the bus. The 
bus was consumed in about a minute and a half with smoke and 
fire. Now, the good news is that there were high school kids on 
that bus. But if I'd have had child restraint hooked up in 
harnesses on that bus with preschool, I'm here to tell you, at 
least half of those children would have died, because we 
couldn't have got them out.
    Chairman Castle. But in a more general sense. I don't know 
if my question was too long or your answer is too long, but 
between us, we've taken up almost all my time.
    Dr. Daeschner. I'm sorry. That was my fault.
    Chairman Castle. But I'd just like to follow up in way to 
cut you off a little bit.
    Dr. Daeschner. OK, sure.
    Chairman Castle. I mean, but is that something that we can 
address? I mean, that's one specific thing.
    Dr. Daeschner. That is.
    Chairman Castle. You're saying maybe we shouldn't have 
those particular things. But in a more general sense--
    Dr. Daeschner. Yes.
    Chairman Castle [continuing]. Are you hindered by all these 
various performance standards you have to live with, or do you 
think they should be changed in some way or another, a whole 
management model from the Federal Government?
    Dr. Daeschner. I can answer that very quickly. It's a 
management style. I believe we ought to, policy-wise, ought to 
be adjusted to the most exemplary classrooms you have and not 
to the lowest classrooms that we have. I as a manager need to 
drive up my lowest classrooms that aren't performing well to 
the highest standards. All standards, for example in Head 
Start, are geared so that you just take one step forward, two 
steps left, one step right. There's certainly a lot of those, 
now, to go in there and give you specifics. But I would rather 
have policies that adhere with the general so that all my 
preschool kids can serve.
    Chairman Castle. How about those of you who are working in 
the so-called quilting effect in terms of your running multiple 
programs? Ms. Cunningham obviously mentioned that, and Ms. 
Mainster may have mentioned it, too. But I see that when I go 
to my Head Start programs in Delaware. They're running a 
variety of things, if you will.
    What are we doing in Head Start that is either positive or 
negative in the middle of that quilt in terms of what you are 
doing that in some way inhibits us from developing these kids 
as fully as we possibly could?
    Ms. Mainster. If I may, I would just say that we use the 
Head Start standards because we're one of your quilters, as 
those that we try to get to with all our programs. The biggest 
difference in our state child care, for example, in Head Start, 
is that there's not funding there nor is there mandate for the 
parent involvement and the comprehensive services in terms of 
health and social services. I would not want to see those 
reduced.
    I think the idea of the specificity--in other words, we go 
out and we look for United Way money, for example, to add to 
our state child care money so that we can bring them to the 
Head Start standard. When you're dealing with low income kids, 
and Head Start founders recognized that this program is as much 
for families as it is for children. Children live in families. 
And so that's not a standard I want to see changed.
    I do think that you have some language proposed about 
shorter term programs need to have some flexibility in terms of 
how they meet the standards. I think we need to look at 
outcomes, and if a program is meeting the outcomes, be less 
concerned about--specifically I'm talking about degrees in 
terms of rural short-term programs, it's next to impossible, 
and we're going to keep struggling with that. But if the 
outcomes are being attained, I think that ought to be adequate.
    Chairman Castle. OK. Thank you.
    Ms. Cunningham?
    Ms. Cunningham. I would argue against lots of changes in 
the performance standards. They in fact have been an example 
for other standard systems, licensing systems, accreditation 
systems across the nation.
    Chairman Castle. And you think they're positive, basically?
    Ms. Cunningham. Oh, yes.
    Ms. Mainster. I do, too.
    Ms. Cunningham. Head Start's standards are looked up to, 
and actually, efforts are made to find ways to help other child 
care and pre-K systems begin to meet Head Start standards. We 
really should continue to hold them up as the highest 
standards, national standards available.
    Chairman Castle. But the criticism--and I probably don't 
have this quite right--but the criticism has sort of been that 
while the standards are fine, they're sort of, I don't know, 
self-dependent in terms of responding to the standards or 
whatever, and that we don't get--``we,'' the government who 
funds this--doesn't get all the information that it needs in 
order to monitor fiscally and perhaps programmatically 
correctly.
    In other words, there's been some criticism of that from 
the point of view of what the management team gets back, if you 
will. You may not be--you're running a program, so you may not 
be the one to answer that question. But we want to make this as 
secure and as positive as possible, but we want to make sure 
that we're eliminating things which are not essential and 
overwork or whatever it may be.
    Ms. Mainster. I just want to say, you're just now getting 
the results of the NRS testing and so forth. I would hesitate 
to say, until you've really had a chance to look at some of 
those, you're finally getting some of the stuff you were 
alluding to wanting.
    Chairman Castle. Right. Good.
    Ms. Cunningham. I think most of the information that you 
reference is available. It's very available. It may not have 
been looked at as critically in the past, as carefully in the 
past, but it's there. And perhaps a stronger system of 
interaction between regional offices and Head Start programs 
could strengthen that system.
    Chairman Castle. But to the extent that I'm criticizing, I 
may be criticizing, what's happening at the regulatory end of 
it, not at the Head Start end of it, as much or more than the 
Head Start end of it, because I think there has been some 
justifiable criticism. I'm just trying to see if there's 
problems we can straighten out.
    Let me yield to Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman, and let me join with 
you in thanking our witnesses. It's very important and very 
helpful information and testimony.
    For the sake of time and to some extent my interest, let me 
focus my questions to Ms. Mainster, if I could. You're running 
an Early Start, Head Start, and a Migrant and Seasonal Head 
Start. Briefly, what are the biggest differences and to some 
extent challenges in coordinating--not only coordinating 
between these programs?
    Ms. Mainster. Thank you, Congressman. The biggest 
difference I would say is the population, because obviously our 
Migrant Head Start has to has flexible opening dates, so our 
staff are frequently laid off for 5 months a year. So holding 
onto that staff is always a challenge. But of course when you 
quilt, you find ways to help them work in other programs if you 
need to.
    The clientele actually are easier. People don't realize 
that. The migrant Head Start families are the easiest to work 
with. Mom and dad both work, but mom and dad have hope, so--I 
know this is not the kind of thing you may be asking, but those 
are the families that are the true immigrants that are looking 
at the American Dream, and they'll do anything they need to get 
there.
    So many of our early Head Start and Head Start families 
have very little hope left, so we have to work with them in a 
different way. I don't think standards-wise, obviously, if 
you're only operating a short-term program, and again, we're 
lucky in Florida. We operate about seven to 8 months. But the 
short-term programs are being killed by trying to fit in, for 
example, all of the various trainings that one must have or all 
the various sessions parents must complete.
    Mr. Grijalva. It goes to your point of flexibility.
    Ms. Mainster. That's the point. And I believe there's some 
language being looked at for some flexibility for short-term 
programs. I would still want the outcomes, yes, sir.
    Mr. Grijalva. Let me just follow up, because I--not just 
because of the migrant and seasonal component and your good 
work in that area, but you serve predominantly Spanish-speaking 
families.
    Ms. Mainster. Yes.
    Mr. Grijalva. And just for the sake of the record and 
others, what advice would you give to other Head Start centers 
regardless of whether they're serving migrant and seasonal 
families who face both the challenge, and quite frankly, the 
reality of large populations of non-English-speaking kids and 
families?
    Ms. Mainster. Well, the very, very first piece of advice is 
they must hire people from that community. They must hire 
Spanish-speaking staff, Spanish-speaking staff who know the 
cultures of the kids that are coming in and who will have the 
respect of the families. That is critical.
    Mr. Grijalva. And I think the last, aside from your point 
in your testimony about the funding and the 19, we're only 
serving 19 percent in migrant.
    Ms. Mainster. Yes, sir.
    Mr. Grijalva. And I think that's a very important point 
that this Committee has dealt with and I hope deals with again 
during the reauthorization. But both as it relates to general 
and migrant and seasonal workers, what other kinds of 
recommendations would you have aside from funding for this 
Committee as we go through this reauthorization process?
    Ms. Mainster. One of the things I think that we could 
improve programs with is if each program had a seasonal-based 
funding so that they could operate for the seasonals the year 
round, then they could use key staff from that to operate their 
migrant programs. That would have to be worked on to make sure 
that the migrants don't ever lose the services. That would be--
    Mr. Grijalva. I think that transition is very important, 
and I--last point and question. How do you coordinate as you 
follow--as the family leaves to follow their work?
    Ms. Mainster. OK. We're actually piloting the promise, 
which is the data web-based system, but the parents are still 
the most important. The parents get a record with all their 
children's scores in it on their assessments. They also get the 
health data, and we let them know where the programs are. Those 
that go to Ohio know exactly where they're going. Those that go 
to Delaware, they know where their centers are. They go in. The 
center can then pick up where we left off and keep going. 
That's the idea.
    The problems of course come where there is no room when 
they get to where they're going. But right now the parents are 
hand-carrying that record. The coordination is counting--is 
really dependent upon the parent making it happen. The programs 
of course all know each other and talk. There's only 25 
grantees, so that helps.
    Mr. Grijalva. Thank you very much.
    Ms. Mainster. Thank you.
    Mr. Grijalva. Mr. Chairman, I yield back.
    Chairman Castle. Thank you, Mr. Grijalva. Mrs. Biggert is 
recognized for 5 minutes.
    Mrs. Biggert. Thank you, Mr. Chairman. I apologize for 
coming in late, but I have to say that I have had a connection 
with Head Start and the fact that I volunteered the first year 
that it had opened in Chicago at Hull House and spent a summer 
with the children there. So it's always been very dear to my 
heart.
    And I can remember--you were just mentioning about how 
people have to be Spanish-speaking. And this of course was a 
Spanish neighborhood and I spoke French and Latin poorly, but 
still, it was something that--so I used to run home and turn on 
Sesame Street to watch to see if I could pick up the language 
in a very short time, which of course by the end of the summer, 
there was quite a bit of communication.
    But I remember then, and the thing about the culture was 
that the lunches that were served were American food, and these 
children didn't know what it was. And they used to just not eat 
it. And finally I said, well, why don't we just, you know, do 
something and bring in some food that they will eat, that is 
their own, and that worked well.
    But what I'd like to know is how many children are unable 
to get into the Head Start program because there aren't enough 
and where do they go in your areas?
    Ms. Cunningham. In our county, we have a 1,900 child wait 
list for our 1,431 child Head Start program, and another 658 
children on our Early Head Start wait list. We have 148 slots 
total 100 or so in centers. We have a huge wait list in 
Alabama.
    Mrs. Biggert. Has there ever been any movement to expand 
it?
    Ms. Cunningham. We've taken advantage of every expansion 
opportunity that's come available. There have not been any 
recently, but we actually have grown from serving 630 children 
in 1986 to 1,431 now.
    Mrs. Biggert. And you wouldn't say that it's diluted the 
program at all?
    Ms. Cunningham. What now?
    Mrs. Biggert. It has not diluted the program?
    Ms. Cunningham. Not at all, not at all, because with those 
additional funds over the years have come the opportunities to 
expand supports, expand space and provide everything that we 
need for each child.
    Ms. Mainster. I think the other answer is where are they, 
those that are not in centers? They're with babysitters in not 
very good settings. Our waiting list--and this was in our 
packet, but just a snapshot on February 5th, we had 2,078 
children on waiting lists, and we also had our data from last 
year to this year. So we went--last year we were 5,837 kids 
that we served, this year 6,242. So we're like, I think all the 
exemplary programs must be very good at seeking out funds, 
because we know that the kids need the services.
    Mrs. Biggert. Mr. Marker?
    Mr. Marker. In our program, we operate an Early Head Start 
program and Head Start program, and obviously, since we only 
have 110 slots for Early Head Start in a three-county area, 
that's where our largest demand is right now. And we do 
maintain a rather lengthy waiting list on that. I'm not aware 
of the current number of it.
    Head Start is a little bit different in Ohio. Until 4 years 
ago, we had a very strong state Head Start program that had 
adopted the Head Start program performance standards, which 
made everything very fluid. We could work very easily. But 
through budget problems, that's gone away, so those children 
now are going to private child care, which is a good thing in 
some cases. A larger and larger number every day are going to 
the more unregulated care that's present in Ohio, and there's 
no regulation, and it's really very scary.
    And I think as--if we ever get to the point where we can 
expand Head Start, that will make our three-county area much 
better because there will be more opportunities to get those 
children into a good environment that is safe.
    Dr. Daeschner. We're rather unique in that--I'm going to 
talk about a district we had in Head Start. But we basically, 
I'm going to talk about children that qualify for free lunch. 
What we serve is Head Start. When I run out of that, I go to 
preschool. When I run of that, I got tuition-based. When I run 
out of that, we have 90 percent of all the 4-year-olds that we 
serve in Jefferson County in an all day, every day 4-year-old 
program. I've got only about 30 percent of the 3-year-olds. 
That translates into about 500 children that could take 
advantage of these services. I have actually 300 on a qualified 
waiting list, so.
    But the way you do that is you combine all the funds that I 
mentioned earlier into a program like we operate, so we can do 
quite a bit with all that funding in a streamless situation.
    Mrs. Biggert. Thank you for all that you do. I yield back.
    Chairman Castle. Thank you, Ms. Biggert. Mr. Kind is 
recognized for 5 minutes.
    Mr. Kind. Thank you, Mr. Chairman. Mr. Chairman, I want to 
first of all thank you for holding this very important hearing. 
I know of your great interest and concern about reauthorization 
of the Head Start program, and if and when we start moving 
forward on a Committee basis, once again we'll look forward to 
working with you in a bipartisan fashion to try to produce a 
good reauthorized bill.
    And I want to thank all the witnesses for being here and 
bringing your particular expertise to the subject. This is an 
incredibly important program for many of us, and I think you 
all appreciate the significance of the Head Start program.
    I mean, it's the most reviewed program at the Federal level 
it seems, and yet it's also the most popular program when you 
talk to the constituents and the families that it services. I 
think the surveys that come back show a high 90 percent 
satisfaction and approval rating from the parents who have 
children in Head Start programs. So I think it really speaks 
volumes in regard to the success the program has had in 
preparing these children to close the achievement gap when it's 
time for them to walk through that kindergarten door for the 
very first time.
    And that's why many of us are concerned in regard to some 
of the more radical proposals being thrown out there by the 
Administration in regards to block granting and the impact 
that's going to have on access, on the quality of the 
programming, on the accountability and the oversight of that 
program too. And hopefully with your help, we can work through 
that, because that's been one of the major stumbling blocks as 
far as reauthorizing this program in the last session and 
perhaps in this session as well. There's a difference of 
opinion.
    But from my perspective, one of the areas that I've been 
concerned about is in regards to this rush for more testing of 
children at an early age and the impact that's going to have on 
them. In fact, I had offered an amendment in the reauthorized 
bill last year that would allow that the National Research 
Council of the National Academy of Sciences to do a 
comprehensive study in regards to what would be the appropriate 
measurements for children at this age so we don't end up doing 
more harm than good just for the sake of testing.
    And I think it's very important as we move forward with the 
reauthorized bill that we do pay attention to the impact of 
what new measurements and tests that we're going to be 
requiring these children to undergo and whether it's the most 
effective and scientifically based standards that we can hope 
for. And I notice the Administration, even though we didn't 
reauthorize the bill, nevertheless through an administrative 
rule, went forward on a new National Reporting System that's 
putting in place this new testing regime even before the 
National Academy has had a chance to complete the work they 
want to do in reviewing the different standards and 
measurements that we can take.
    I'd be curious to hear your opinion in regards to this new 
National Reporting System, the impact it's having, whether you 
think it makes sense or whether there's another approach that 
we can take in working with the Administration so we get this 
aspect of the Head Start program done right and not wrong, 
which I think is very important in regards to the performance 
of these kids and where they're going to go from there. And I'd 
just open it up to anyone on the panel, quite frankly, who's 
interested in touching that rail.
    Mr. Siegfried. Thank you. Although I appreciate the 
objectivity of the data available through the National 
Reporting System, it only allows me, the user, to see this 
information at one level, at the agency level. Users have no 
ability to filter out information at the center or classroom 
level and certainly can't then therefore impact individual 
teaching, because that report is not available, nor can I 
provide any information back to a parent in that regard.
    It also measures three developmental domains, and we know 
that our holistic service would appreciate eight domains, and 
that certainly is our approach as comprehensive services. We 
prefer to look at child outcomes really through many different 
lenses. Certainly our Brigance screening done initially within 
45 days of enrollment gives us some initial information.
    Also the Child Observation Record, the COR, High/Scope's 
COR, that we do implement then throughout the school year 
provides information that is directly aligned to the Federal 
performance standards, certainly the domains and elements and 
also the ODE Early Learning Contents standards.
    We collect data three times a school year, four in our year 
round programs, and then we can filter that information out by 
county, by program option. We can sort that in different ways 
really to determine the patterns and trends that we see. So 
that information is very useful to us.
    We can also take that information and we can then apply it 
to High/Scope's Outcomes Reporter software, which then allows 
us to see how the information that we are determining as growth 
comparatively on the COR six scales then translates to the 
eight Federal domains as well as the required elements within 
the framework.
    In addition, we use less formal methods of assessment, 
including portfolio systems that parents find very friendly 
because there's oftentimes photographs and anecdotal notes that 
accompany of course more formal reports available through some 
of these other observation pieces.
    Last, the piece that we have recently adopted, the ECERS 
and the ITERS, the Early Childhood Environmental Rating Scale, 
again, it's a very comprehensive measure certainly. It measures 
the environment, it measures everything really from how deep 
the mulch is on the playground to how wide the doors in your 
classroom. And certainly it measures then the adult-child 
interaction, the ability of staff to relate appropriately to 
children to extend ideas, to relate it to concepts, and to 
really deepen that knowledge.
    Mr. Kind. Thank you. Mr. Chairman, I see my time has 
expired, but if any of the other panelists have something to 
add, I would encourage you to maybe forward some information or 
get directly in touch with my office so we can work with you on 
this very important matter, I feel.
    Thank you, Mr. Chairman.
    Chairman Castle. Thank you, Mr. Kind. Mr. Osborne is 
recognized for 5 minutes.
    Mr. Osborne. Thank you, Mr. Chairman, and thank you all for 
being here today. First of all, just a rather quick specific 
question. Mrs. Mainster, I think you mentioned that you have a 
budget of $47 million and you serve 6,000 children, and I think 
that would translate to about $7,800 per student.
    Ms. Mainster. Yes.
    Mr. Osborne. It seems a little high, but maybe I don't 
understand. And I wonder if you could comment on that as to 
what the average cost for a Head Start student is and how you 
justify those costs.
    Ms. Mainster. Sorry I gave you the numbers, but I'll try. 
Actually, we also have two charter schools in those numbers. 
That is, those are not all Head Start children. And in the Head 
Start arena, we serve--two-thirds of the children we serve are 
infants and toddlers. Infants and toddlers require a one-to-
four staff/child ratio. It is much, much more expensive, no 
question. I don't actually think we do it on $7,800. It's more 
than that, sir.
    Mr. Osborne. Yes.
    Ms. Mainster. I would yield if I could, because I would 
have to play with some numbers to get you the actual cost in 
Head Start, in Migrant Head Start and in Early Head Start and 
in child care. I could do that. But when you lump it all 
together, it's an average, and it doesn't include the two 
charter schools.
    Mr. Osborne. Well, let me throw out a broader question, and 
that is that every group we have come before us is ecstatic 
about how important Head Start is, how good it is, how much 
they're doing. And I agree that it's a very important program, 
and I think it's obviously something that we need to support as 
much as we can. Do you have any ways of quantifying what you're 
getting done? In other words, at some point somebody's going to 
ask some questions and say, well, you know, everybody feels 
good about it. The kids are happier. There's more 
socialization. But what evidence do we have? You know, 
because--do you have any control studies where you have a set 
number of people with similar backgrounds and skills, one of 
which has gone to Head Start, one which has not, and where they 
are 2 years, 6 years, 8 years, 10 years later?
    Ms. Cunningham. There's a Head Start impact study going on 
right now in its third year I believe collecting exactly that 
kind of data. We're expecting a report soon. It's a national 
study in lots of communities across the nation, and it has a 
control group of children and a group who went to Head Start 
that it's comparing over several years.
    There are lots of small studies that have also looked at 
Head Start children compared to children not in Head Start. We 
did a small one in our program, and we're seeking an 
opportunity to find those children now that they're in about 
fourth grade to see what a difference having been in Head Start 
made.
    So there are lots of folks looking at how Head Start 
children have done compared to other children across the 
nation.
    Ms. Mainster. And I would just, we tried--we actually 
contracted with the university to do such a study, and then 
the--and I don't want to say it wrong, but I think it's HIPPA--
but it was another where confidentiality was etched up a notch, 
and they backed out. They said the school district wasn't 
allowed to release that data.
    Now possibly within a school district they could do it 
themselves, but not for a school district to release the data 
to the university for us. So we did try, because we recognize 
what you're saying. We have lots and lots of good stories we 
can prove individuals, but I can't give you the numbers that I 
think you need.
    Mr. Osborne. OK. Go ahead.
    Dr. Daeschner. Our programs, Early Childhood has been in 
place about 7 years. That would make the kids about fourth 
graders if you look at three- and 4-year-olds. And we matched 
kids going into this six or 7 years ago, and we matched it 
against free lunch that got Early Childhood programs and ones 
that did not.
    At the end of the fourth grade, we're looking at about an 8 
percent difference in standardized reading and similar to that 
with about a variance of two points on either side of that in 
terms of math.
    Where it really begins to also make a significant different 
is in special education. The kids that we can get in special 
education at a preschool, three- and 4-year-old and look at 
that comparative group, we have a lot less that qualify for 
special education at that fourth grade level if it occurs at 
the three and 4-year-old level. So we've got real clear data. 
I'd be happy to give you all those stats. We've tracked that. 
We've flagged the kids. We watched them, and we have all that 
data from almost 6 years.
    Mr. Osborne. Well, I think in reauthorization of Head Start 
which we went through last year and will go through again this 
year, one of the main concerns was that really when you look at 
enhanced academic performance, there wasn't maybe as much as we 
had hoped would be there, and therefore we put in some 
stipulations that required a little bit more academic rigor, 
and that's kind of a tough term to use when you're dealing with 
three- and 4-year-olds, but at least ability to know the 
alphabet and to write your name and, you know, the nuts and 
bolts and some of the basics.
    So the desire is to maybe enhance the academic performance. 
I think what you're saying is right. There's a lot of 
overidentification in the special education issue, and it could 
very well be that Head Start does cut down some of that 
overidentification or misidentification. And so anyway, but the 
more data we can get our hands on, you know, the better we can 
do. And it's a little sketchy right now, so. Mr. Chairman, I 
yield back. Thank you.
    Chairman Castle. Thank you, Mr. Osborne. Mrs. Davis is 
recognized for 5 minutes.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman. Thank you 
all for being here. I'm sorry that I had to be at another 
hearing, but I wanted to just express to you, as others have, I 
mean, we all feel that the program has certainly made a 
difference for many, many children. It is interesting that 
perhaps the gap has closed a little bit between those who do 
not have the advantage of Head Start and those who do. But that 
may be because of other factors, as well.
    I'm amazed by how much young children are exposed to today, 
but the real critical issue is that there are children who are 
exposed to many, many things and those who are exposed to a 
little bit, and we need to try and balance that.
    I wanted to go to Ms. Cunningham for a second, because I 
know that we speak about the number of children that are on 
waiting lists. And we're also concerned about funding. If you 
had more funding, however, would you have the capacity to have 
the teachers that you need, the infrastructure, the facilities, 
all the things that are needed to make the program work?
    Ms. Cunningham. It would take time, but we could do it. It 
takes training teachers. It takes the money to pay them. It 
takes funds to help us find facilities and bring them up to 
licensing standards. But all of that can be done. We've done 
that for years. As long as there's not the expectation that it 
will be done tomorrow, we can serve more children over time.
    Mrs. Davis. OK. Thank you. One other question, and I think 
you probably addressed nutrition earlier, but we are very 
concerned about obesity in young children today. Do you see 
that Head Start is working to address this more? And 
particularly in the area of parent education. Because I think 
it really starts in the home. And kind of tough. I saw that the 
Cookie Monster is actually going to be eating more vegetables, 
and I was really glad to see that.
    But I wonder if you could talk a little bit about that and 
what plans are being done to really focus particularly on the 
parent education piece of that, because that's important.
    Ms. Cunningham. In our program we did a study of children's 
and parents' activity to begin to see what the problem in terms 
of activity--intake versus activity was. And we really 
determine that our children are not getting out and playing 
enough, not having enough physical activity, and that our 
parents are not serving them fruits and vegetables enough to 
provide the kind of healthy intake we'd like.
    So we use our parent involvement component as a vehicle for 
more training and demonstrations to parents about healthy 
eating. We participate in a study with the university, the 
University of Alabama, trying to find a way to encourage more 
low income families, more low income children, more low income 
parents to provide fruits and vegetables for their children.
    I just came from a conversation at the Kellogg Foundation 
about what they can do to begin to help parents of young 
children provide more healthy meals and provide more activity 
for them. So there's a real interest in Head Start.
    Mrs. Davis. That's great. Thank you. I appreciate that. And 
it is a combination of factors and it applies to all parents, 
not just parents in Head Start, but we certainly can accentuate 
that perhaps more.
    One other quick question on assessments, because I think 
that is terribly important. We always are telling people, tell 
us your story, but we need to have data, too. It's not just 
anecdotal. You seem to--you alluded, I think, to the importance 
of children being in programs. I think my colleague mentioned 
the food that's presented so that there's sort of a cultural 
identity with that.
    When we're assessing, are we trying to minimize the 
cultural dissonance with children so that what it is they bring 
from the home actually is carried through and we're evaluating 
partly their progress in relating to that which they know as 
well as that which is new to them? But is there consistency 
with that? Do you think that there's enough emphasis on that?
    Ms. Mainster. There's a difference between assessment and 
testing. In our assessment tools, I think all of us are very 
cognizant and aware of that, and I did include our outcomes in 
my testimony, which your staff might want to wade through.
    But the testing, there were a lot of concerns about that 
very issue in terms of children having to learn what a vase was 
and what a swamp was. Kids are amazing, though. And the 
teachers are also amazing. So we're teaching more about vases 
and swamps these days.
    Mrs. Davis. Thank you. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Castle. Thank you, Mrs. Davis. I'm going to 
recognize--actually, I'm going to recognize Mr. Scott and Mr. 
Hinojosa together. Let me explain why. We are in the middle of 
a vote. We've got about 10 minutes to go on the vote, and we've 
got to leave in about five or 6 minutes to go vote, and it's a 
series of votes, so it's going to be 30 or 40 minutes. And 
rather than bring everybody back, I think I'm going to try to 
finish the panel up.
    I had a few extra questions that I'll submit in writing, 
particular to you, Dr. Daeschner, that I want to get some 
answers to. But I want to make sure they have their 
opportunity. So, gentlemen, you take whatever time we can allow 
until we have to go vote in five or 6 minutes.
    Mr. Hinojosa. Thank you, Mr. Chairman, and thank you, 
Congressman Scott, for allowing me to ask at least one question 
before we rush off to vote.
    It was last year that three different caucuses, the 
Congressional Hispanic Caucus, the Congressional Black Caucus, 
and the Congressional Asian-Pacific American Caucus, sent a 
letter to the Secretary of HHS detailing our concerns about the 
technical quality of the assessment and the appropriate use of 
such assessment of Head Start students. Nonetheless, HHS has 
moved forward with this assessment without ensuring that the 
assessment meets the highest quality technical and professional 
standards, and this is especially true for the test given in 
Spanish. More seriously, HHS has proceeded with this national 
assessment without clearly defining the purpose nor how the 
results will be used.
    I would like to ask Ms. Gayle Cunningham, the executive 
director from the Alabama program, to share with us your view 
of the appropriateness of this assessment for the children that 
they serve and to comment on their understanding of the purpose 
of such assessment.
    Ms. Cunningham. The children we serve in Birmingham are 
predominately black, so we did not have as many of the issues 
around very different cultures. Our concern is about the 
addition of this test to all the other assessment which we 
developed or made choices about which we believe to be 
appropriate and to fit into our program; the amount of time 
that it has taken for our staff to learn this new test and 
administer this new test; the fact that the feedback that we 
receive has not yet been useful to us. It's general. It's about 
the whole program. It's not about individual children, 
individual classes, or even individual centers.
    Mr. Hinojosa. You've made a good point. Can you tell us how 
you and the other members of this panel can help us draft what 
would be the ideal way to do it and how to use that assessment? 
Maybe pass the buck over to the lady to your right. How do we 
pronounce your name, Mainster?
    Ms. Mainster. Yes, sir.
    Mr. Hinojosa. Thank you.
    Ms. Mainster. Please don't pass the buck to me.
    [Laughter.]
    Ms. Mainster. I would say in our Migrant and Seasonal Head 
Start program this year, they didn't have their act together to 
get the NRS out to us. In our regular Head Start, we serve 
about one-third Hispanic, one-third African-American, and one-
third Anglos. And those Hispanic kids, of course, are the more 
seasonal settled out. Their English is better. And so it's hard 
for us. They did take it in the two languages.
    I guess maybe--I'm writing down that you want information, 
you want to know how to fix it. There are experts here that 
could do that much better than I. I will just tell you that we 
roll with the punches. I'm not--we're going to do what we have 
to do. We're going to keep on doing a good program. I would 
just wait. If anybody every tried to hit us over the head with 
it, I would come back with my ammunition at that point.
    Mr. Hinojosa. Well, we--
    Chairman Castle. Mr. Hinojosa, we've got to go, Mr. Scott, 
or we're never going to get to him.
    Mr. Scott. Thank you, Mr. Chairman. Let me just make a 
couple of comments. We talk about these studies and the 
longitudinal studies I hope we're considering not just the 
educational aspects but the other aspects, reduction in crime, 
behavior, drug use, teen pregnancy and everything else that 
happens long term.
    There's a reason why this program is in Health and Human 
Services and not in Education, because you have the 
immunizations, the nutrition, and all the other things that are 
as much social service as well as anything else, and there's a 
strong belief that it is in the right department.
    I have the same concern that Mr. Hinojosa had about the 
high stakes test. We don't want to punish children who fail a 
test because they were in a bad program, but we do want to make 
the assessments, because the programs--some programs are better 
than others. And if you're assessing the program, that's one 
thing. If you're punishing the children and failing to promote 
and that kind of thing, that is not as useful. The tests 
obviously have to be validated for the purpose for which they 
are being used.
    Also, as we're doing these assessments, I would hope they 
would be useful in improving the program. Some programs are 
better than others. If a program is not doing well, the 
assessment ought to be able to show exactly what we can do to 
improve it.
    So with all of those on assessments and the social aspects 
of it, Mr. Chairman, I'd just express those concerns. I assume 
we're going to be having other hearings. And I appreciate the 
opportunity for you to kind of squeeze us in at the end.
    Chairman Castle. Thank you, Mr. Scott. What Mr. Scott is 
referring to in the other hearing is we're having another 
hearing on this subject next week at which point we can 
continue to develop some of these issues, and I appreciate his 
helping with the time situation that we have.
    Yes, Ms. Cunningham? You've got to be brief, but we'd love 
to hear from you.
    Ms. Cunningham. Just quickly, in response to your first 
question about regulations, there's a much greater need for 
managers to have more training and support in using and 
following regulations.
    Chairman Castle. Federal managers?
    Ms. Cunningham. No. Head Start managers.
    Chairman Castle. Head Start managers.
    Ms. Cunningham. There's no system for bringing Head Start 
directors on, Head Start fiscal staff on, and helping them--
    Chairman Castle. Training for them.
    Ms. Cunningham [continuing]. Quickly learn the regulations 
and how to assure that they are working in their programs. Each 
of us has had to figure it out for ourselves. And if there were 
a system of supports for management and administration of Head 
Start programs, I think that would be a path that would yield 
greater benefits than one of seeking out what regulations could 
be changed or dismissed.
    Chairman Castle. That has the ring of a sound suggestion. 
You know, we do have the various regional agencies and that 
kind of thing, so hopefully we could do it.
    Let me close this down, unfortunately rather rapidly, 
because we have to run and vote. Let me thank all of you very 
much for being here. Because we didn't quite have a chance to 
do all the questioning we would like to do, we may have some 
follow-up questions. I know in particular I have some questions 
for Dr. Daeschner. We'll get in touch with you by mail if 
that's the case.
    But, again, I wanted to thank you all very much for being 
here. As you know, we're working on this legislation. 
Hopefully, we'll have a piece of legislation that will benefit 
all the kids in the country.
    But thank you very much.
    Ms. Mainster. Thank you.
    Chairman Castle. We stand adjourned.
    [Whereupon, at 11:53 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

  Statement of Charles R. Field MD, MPH, FAAP, Mary Kaye McKinney and 
    Patricia A. Price, University of Arkansas for Medical Sciences 
   Department of Pediatrics Head Start Program, Pulaski County, AR, 
                        Submitted for the Record

    Since 1998, the University of Arkansas for Medical Sciences (UAMS), 
a teaching university, has had the opportunity to administer the Head 
Start program in Pulaski County, Arkansas. The UAMS Department of 
Pediatrics became the grantee for the Pulaski County Head Start program 
in November of that year and today enrolls approximately 1000 Head 
Start and Early Head Start children and serves the interests of many 
more in the community.
    The primary purpose of the national Head Start and Early Head Start 
programs--to increase the school readiness of low-income children--is a 
perfect match for the three missions of UAMS: to teach, to search, and 
to serve. UAMS accomplishes both by offering more than the traditional 
Head Start services. The UAMS Head Start program is highly successful 
at helping our students prepare for school. Attached is graphical 
information about the success our program has had in educating students 
and preparing them for elementary school. We are very proud of our 
accomplishments in this area.
    We are pleased today, however, to tell you about two areas of 
services we provide which set us apart from others in the Head Start 
community. Because of our education mission, we endeavor to promote 
educational opportunities beyond our students and because we are a 
medical education institution, we use our Head Start program to promote 
the health of our students, families, and community.
    Educating the Community. In addition to educating children, the 
UAMS Head Start program provides educational opportunities to many 
others. The program provides service-learning opportunities to students 
enrolled in the UAMS Colleges of Nursing, Medicine, Health Related 
Professions and Public Health. These graduate level students work with 
our Head Start children and as a result gain valuable experience in 
dealing with children. Their involvement provides hands on experience 
and prepares them for the challenges they may face in their medical 
practice. We also provide tuition discounts to help our Head Start 
employees (and their family members) continue their education at UAMS 
affiliated higher education institutions.
    Ensuring a Health Community. The thing that truly sets the Head 
Start program at UAMS apart from others is our commitment to using the 
Head Start program to promote the health and welfare of our community. 
Children enrolled in our program and their parents have access to 
health, nutrition, dental and mental health services from UAMS and 
other sources. The services, provided by our students and faculty, 
range from basic medical screening services to consultations with 
medical specialists.
    Since its inception, UAMS has provided free medical services to 
hundreds of students and families. UAMS staff has performed more than 
100 health care screenings on students without access to primary care; 
719 children without dental insurance have received dental checkups 
from UAMS dentists; and more than 100 children have been referred to 
UAMS physicians for comprehensive specialty pediatric services. In all 
these cases, the services provided would not have otherwise been 
available to the students because of gaps in, or lack of, health 
insurance. Two recent cases provide concrete examples of the success 
UAMS has had in promoting health among students:
    <bullet>  A Head Start mother with a substance abuse problem sought 
assistance from Head Start personnel. The UAMS Head Start personnel 
referred the mother to the UAMS Arkansas Center on Addiction Research 
Education and Service (CARES). The mother continues to receive 
treatment and job skills training as a result of the referral. Most 
importantly, the services were provided without separation from her 
family and her preschool children continued to receive integrated early 
childhood education including therapy services to deal with the 
mother's addiction.
    <bullet>  Just last month, Head Start personnel noted a four-year 
old student with balance difficulty and a propensity to drool. Medical 
personnel on site at the Head Start facility monitored the student and 
reviewed her medical records. Based on these observations the student 
was referred to UAMS medical specialists. UAMS specialists discovered a 
brain tumor. The child is now undergoing treatment by UAMS 
Neurosurgeons and Pediatric Specialists.
    Head Start students and families also participate in research 
programs conducted by UAMS. Students and families receive health care 
services and the information derived through the research helps UAMS 
find ways to improve the condition of the students, families, and the 
community. For example, UAMS Head Start has participated in the 
following research initiatives:
    <bullet>  Asthma Project--An initiative, funded by the Agency for 
Health Care Research and Quality, to find better outcomes for children 
with Asthma. UAMS researchers showed children with Asthma proved better 
outcomes for children with Asthma using the Head Start program by 
educating parents and staff on Asthma.
    <bullet>  Obesity Project--The UAMS Department of Clinical 
Nutrition provides interns twice a year to compile data on the height, 
weight and body mass index profile of the UAMS Head Start Children. 
UAMS uses this information to chart childhood obesity and researchers 
utilize the data to educate parents and the public on ways to address 
childhood obesity. Information compiled by UAMS supported statewide 
efforts to develop comprehensive nutritional programs and an 
educational/physical curriculum to help reduce obesity in our children.
    <bullet>  Health Screening Data--UAMS medical professionals use 
information derived through the health screenings provided to Head 
Start students and families to better understand and promote child 
development.
    We are very proud of the accomplishments of the children, their 
parents and our staff in our Head Start program. As the attached 
information shows, we have had a great deal of success in educating our 
students and preparing them for elementary school. But in addition to 
educating the students, the integration between our Head Start program 
and the facilities and personnel of UAMS allow us to offer services and 
accomplish things for our students and families, that sets us apart. We 
know the UAMS Head Start program is laying a foundation for a better 
tomorrow for thousands of families in the state.
    [Attachments to this statement follow:]

    [GRAPHIC] [TIFF OMITTED] T0629.005
    
    [GRAPHIC] [TIFF OMITTED] T0629.006
    
                                ------                                


Statement of Matthew E. Melmed, J.D., Executive Director, Zero to Three 
        Policy Center, Washington, DC, Submitted for the Record

    Chairman Castle and Members of the Subcommittee:
    I am pleased to submit the following testimony on the 
reauthorization of Head Start on behalf of ZERO TO THREE. I am Matthew 
Melmed, Executive Director of ZERO TO THREE. ZERO TO THREE is a 
national non-profit organization that has worked to advance the healthy 
development of America's babies and toddlers for over twenty-five 
years. I would like to start by thanking the Subcommittee for all of 
their work to ensure that our nation's at-risk infants and toddlers 
have access to positive early learning experiences.
    We know from the science of early childhood development that 
infancy and toddlerhood are times of intense intellectual 
engagement.\1\ During this time--a remarkable 36 months--the brain 
undergoes its most dramatic development, and children acquire the 
ability to think, speak, learn, and reason. All babies and toddlers 
need positive early learning experiences to foster their intellectual, 
social, and emotional development and to lay the foundation for later 
school success. Babies and toddlers living in high-risk environments 
need additional supports to promote their healthy growth and 
development. Disparities in children's cognitive and social abilities 
become evident well before they enter Head Start or Pre-Kindergarten 
programs at age four. Early Head Start was created to help minimize 
these disparities and ensure that children enter school ready to learn.

The Success of Early Head Start
    The Congressionally mandated National Evaluation of Early Head 
Start--a rigorous, large-scale, random-assignment evaluation--concluded 
that Early Head Start is making a positive difference in areas 
associated with children's success in school, family self-sufficiency, 
and parental support of child development. What is most compelling 
about the Early Head Start data is that they reflect a broad set of 
indicators, all of which show positive impact--patterns of impacts 
varied in meaningful ways for different subgroups of families. The 
reauthorization provides an opportunity to focus on what can be done to 
achieve even greater impacts for infants, toddlers and families in 

Early Head Start. Highlights of the study include:
            Intellectual, Social and Emotional Development
    <bullet>  Early Head Start Moves Children Further Along the Path 
that Could Lead to Greater School Readiness if the Early Head Start 
Gains are Maintained By Good-Quality Preschool Programs. Early Head 
Start produced statistically significant, positive impacts on 
standardized measures of children's cognitive and language 
development.\2\ A smaller percentage of Early Head Start children (27.3 
percent versus 32.0 percent) scored in the ``at-risk'' range of 
developmental functioning (although still below the mean of national 
norms). By keeping children from entering the lowest-functioning group, 
Early Head Start may be reducing the risk of later poor cognitive, 
language, and school outcomes.\3\
    <bullet>  Early Head Start Children Had More-Positive Interactions 
With Their Parents than control group children. Positive and secure 
parent-child relationships may reduce a young child's fear in novel or 
challenging situations and enable the child to explore with 
confidence.\4\
    <bullet>  Early Head Start Children Were More Attentive To Objects 
During Play than control group children. Play is important because 
being attentive to and engaged in play activities is how children begin 
to learn important cognitive and social skills needed for later school 
and life success.

            Parenting and Families
    <bullet>  Early Head Start Parents Were More Involved and Provided 
More Support for Learning. Early Head Start programs have significant 
favorable impacts on a range of parenting outcomes. Early Head Start 
parents were observed to be more emotionally supportive and less 
detached than control-group parents. They also provided significantly 
more support for language and learning than control-group parents.
    <bullet>  Early Head Start Helped Parents Move Toward Self-
Sufficiency. Early Head Start significantly facilitated parents'' 
progress toward self-sufficiency. Although there were not significant 
increases in income, there was increased parental participation in 
education and job-training activities.
    <bullet>  Early Head Start Programs Had A Substantial Impact on 
African American Families and A Notable Impact on Hispanic Families. 
Early Head Start programs were especially effective in improving child 
development and parenting outcomes of African American children and 
parents. The Early Head Start programs also had a favorable pattern of 
impacts on Hispanic children and parents.
    <bullet>  Early Head Start Had Positive Impact for Parents at Risk 
of Depression. Early Head Start parents who had been at risk for 
depression when they enrolled in the program reported significantly 
less depression than control-group parents reported when their child 
reached age three. Early Head Start also demonstrated a favorable 
pattern of impact on children's social-emotional development and 
parenting outcomes among these families.
    <bullet>  Early Head Start Had Favorable Impact on Child-Father 
Interactions. Early Head Start significantly improved how fathers 
interacted and related to their children. Early Head Start children 
were observed to be more able to engage their fathers and to be more 
attentive during play than control group children. Early Head Start 
fathers were observed to be less intrusive in interacting with their 
children than control group fathers. The emotional quality of the 
father-child relationship appears to be extremely important to 
children's adjustment and well-being.\5\
    <bullet>  Early Head Start Participation resulted in Fewer 
Subsequent Births. Early Head Start low-income mothers were less likely 
to have subsequent births within the two years following enrollment in 
Early Head Start.

Children Served by Early Head Start
    Early Head Start began with 68 new programs in 1995. Now more than 
700 programs serve over 71,000 low-income families with infants and 
toddlers. However, we know that Early Head Start could benefit many 
more at-risk children. Currently, only 5 percent of the children 
eligible for Early Head Start are served. Thousands of eligible 
children nationwide remain on waiting lists. And waiting lists can be 
significant. For example, one program has reported a waiting list of 
over 400 children for only 92 slots. A program in Wheeling, West 
Virginia reports that they have a waiting list of 216 children for 48 
slots. And a program in Asheville, North Carolina reports that they 
receive phone calls on a daily basis from desperate parents needing a 
quality early education program. The program rarely has vacancies and 
has a waiting list of over 100 children for only 40 slots. In short, by 
every measure of capacity, we clearly must do more to serve eligible 
babies and their families, delivering the proven benefits of Early Head 
Start to those who are in greatest need. There are very few high 
quality alternatives for at-risk babies. Child care for this population 
is abysmal and there is not much going on in states. Early Head Start 
has really become a ``Beacon of Hope'' for at risk infants, toddlers 
and their families

Funding
    Currently, 10 percent of the overall Head Start budget is used to 
serve 71,000 low-income families with infants and toddlers through 
Early Head Start--only 5 percent of all eligible children. We strongly 
encourage the Subcommittee to increase the Early Head Start portion of 
the program to 20 percent of the overall Head Start budget. Additional 
funds will enable us to protect and continue to build on the firm 
foundation that currently exists and to ensure that more eligible 
babies and families are able to benefit from the services of Early Head 
Start.

The Head Start Program Performance Standards
    Key to Early Head Start's success is its emphasis on the 
implementation of the Head Start Program Performance Standards--
research from the National Evaluation of Early Head Start demonstrates 
that programs that fully implement the Performance Standards early on 
have a greater impact on child and family outcomes than those that do 
not.\6\ This finding indicates that the success of the program is 
largely dependent on the preservation of these performance standards. 
The first set of Head Start Performance Standards, published more than 
20 years ago, focused only on the provision of services to preschool 
children. The revised Standards cover the provision of services for 
pregnant women and children from birth to five years of age. We urge 
the Subcommittee to protect the Performance Standards as they are key 
to Early Head Start's success.
    The Performance Standards ensure that Early Head Start programs pay 
close attention to the unique needs of infants and toddlers by: 
supporting responsive, consistent, nurturing caregiving; promoting 
social and emotional growth, physical development, and sensory and 
motor development; and encouraging language development. The 
Performance Standards pay particular attention to the social and 
emotional development of infants and toddlers by focusing on their 
relationship with their teachers and ensuring that center-based and 
home-based teachers are consistent and nurturing, well-trained, and 
that they understand the child's family culture. The Performance 
Standards are different for infants and toddlers. Examples include:
    <bullet>  A Higher Ratio Requirement: Agencies must ensure that 
each teacher that works exclusively with infants and toddlers in a 
center-based setting has responsibility for no more than four infants 
and toddlers and that no more than eight infants and toddlers are 
placed in a group. This ratio is maintained until Early Head Start 
children are 36 months. For programs serving 3, 4 and 5-year old 
children, the ratio requirements are quite different. Each Head Start 
class must be staffed by a teacher and an aide or two teachers. Three 
year-olds have an average of 15-17 children per class, with no more 
than 17 children enrolled in any class. 4 and 5 year-olds have a class 
average of 17-20 children, with no more than 20 children enrolled per 
class.
    <bullet>  More Staff Intensive: Early Head Start program staff 
working with infants and toddlers who are counted in the ratio must be 
qualified as an infant/toddler teacher which means that the individual 
must have a minimum of a CDA credential for Infant and Toddler 
Caregivers or an equivalent credential at the time of hire or within 
one year of hire. Thus, the teacher's aide concept that is so common in 
Head Start preschool programs has no currency in EHS. Unlike Head Start 
teachers, EHS teachers must also have knowledge of infant and toddler 
development, safety issues in infant and toddler care, and methods for 
communicating effectively with infants and toddlers, their parents, and 
other staff members.
    <bullet>  Special Nutritional Requirements: Staff and families must 
work together to identify each child's nutritional needs. For infants 
and toddlers, current feeding schedules and amounts and types of food 
provided, including whether breast milk or formula and baby food is 
used, meal patterns, new foods introduced, food intolerances and 
preferences; voiding patterns; and observations related to 
developmental changes in feeding and nutrition. In addition, infants 
and toddlers who need it must be fed ``on demand''. Head Start children 
do not have these special nutritional requirements. The Performance 
Standards do note that the feeding experiences for preschoolers should 
occur at scheduled times, and be flexible enough to deal with the 
individual needs of children.
    <bullet>  Services to Pregnant Women Enrolled in Early Head Start: 
Early Head Start grantees must assist pregnant women to access 
comprehensive prenatal and postpartum care through referrals--
immediately after enrollment in the program. This care must include: 
early and continuing risk assessments which include an assessment of 
nutritional status as well as nutrition counseling and food assistance; 
health promotion and treatment including medical and dental 
examinations on a schedule deemed appropriate by the attending health 
care providers as early in the pregnancy as possible; and mental health 
interventions and follow-up including substance abuse prevention and 
treatment services as needed. Requirements for services to pregnant 
women do not apply for Head Start as only Early Head Start serves 
pregnant women.

Training and Technical Assistance
    From the beginning, Early Head Start's implementation was assisted 
by a dedicated national and regional training and technical assistance 
network with specialized knowledge of the needs of infants, toddlers 
and their families. Given the recent changes in the overall Head Start 
training and technical assistance system, the small size of the Early 
Head Start program, and the positive child and family outcomes that the 
program is yielding, we are concerned about the maintenance of the 
national and regional Early Head Start training and technical 
assistance system. In order to sustain the positive outcomes generated 
by the program, Early Head Start programs and staff need to continue to 
receive the ongoing training opportunities and technical assistance 
from organizations with specialized expertise relating to infants, 
toddlers and families and the demonstrated capacity needed to provide 
direction and support to the national and regional training and 
technical assistance system.

Early Head Start's Comprehensive Approach
    Research demonstrates that comprehensive services, such as 
education, health and family support services have a positive impact on 
Early Head Start families. We urge the Subcommittee to protect Early 
Head Start's comprehensive approach to serving children and families. 
Comprehensive services include:
    <bullet>  Education: In providing services to infants and toddlers, 
Early Head Start programs must support the physical, social, emotional, 
cognitive, and language development of each child. Early Head Start 
programs are to encourage the development of secure relationships for 
infants and toddlers by having a limited number of consistent teachers 
over an extended period of time and are to encourage responsiveness to 
infants'' individual cues and developmental changes. Teachers in both 
center-based and home-based settings should understand the child's 
family culture and speak the child's language whenever possible. Staff 
must support the social and emotional development of infants and 
toddlers by promoting an environment that will encourage the 
development of self awareness, autonomy, and self expression and 
support the emerging communication skills of infants and toddlers by 
providing daily opportunities for each child to interact with others 
and to express him/herself freely. Staff must also support the physical 
development of infants and toddlers by supporting the development of 
physical skills of infants and toddlers including motor skills such as 
grasping, pulling, crawling, walking and climbing and creating 
opportunities for fine motor development that encourage control and 
coordination of small specialized motions using the eyes, mouth, hands 
and feet. Ongoing assessment of each child's skills and behaviors plays 
a key role in developing a curriculum that is age-appropriate, 
culturally sensitive, and tailored to meet his or her specific needs. 
As previously mentioned, the National Evaluation found that Early Head 
Start produced statistically significant, positive impacts on 
standardized measures of children's cognitive and language 
development.\7\
    <bullet>  Family Support: Early Head Start programs are required to 
involve families in every aspect of the program and provide them with 
added services, such as adult education and employment training. 
Programs are to work with families to set goals for themselves and 
their children and should ensure families'' access to community 
resources and services. Programs use community partnerships as a key 
vehicle for increasing families'' access to quality child care, 
prenatal services, housing, employment, and maternal and child health 
care. The National Evaluation found that Early Head Start helped 
parents move toward self-sufficiency. Early Head Start significantly 
facilitated parents'' progress toward self-sufficiency. Although there 
were not significant increases in income, there was increased parental 
participation in education and job-training activities.
    <bullet>  Health: Early Head Start provides comprehensive health 
services to infants, toddlers and families through prevention and the 
early identification of health and developmental concerns, and through 
links to community health services. Early Head Start programs provide 
health and developmental screenings when children enroll and 
periodically throughout children's participation in the program. If a 
health or developmental concern is identified that indicates a 
disability or other developmental delay, children are promptly referred 
to local Part C programs for further evaluation and if eligible, early 
intervention services are provided. The National Evaluation found that 
few effects on family health emerged due to very few overall 
differences between program and control groups in the receipt of health 
services--nearly all program and control group families reported 
receiving basic health services.\8\

Conclusion
    During the first three years of life, children rapidly develop 
foundational capabilities--cognitive, social and emotional--on which 
subsequent development builds. These years are even more important for 
at-risk infants and toddlers. Early Head Start can serve as a 
protective buffer against the multiple adverse influences that may 
hinder their development in all domains.
    We know based on research from the National Evaluation that Early 
Head Start is working! Key to the program's success is its emphasis on 
the implementation of the Head Start Program Performance Standards, 
which ensure the highest quality care for babies and families and its 
comprehensive approach to serving children and families. We must 
protect and continue to build on the firm foundation that currently 
exists and ensure that our nation's at-risk babies are able to enter 
school ready to learn.

Endnotes
    \1\ Shonkoff J., and Phillips, D. (Eds.) (2000). National Research 
Council and Institute of Medicine. From Neurons to Neighborhoods: The 
Science of Early Childhood Development. Washington, DC: National 
Academy Press.
    \2\ U.S. Department of Health and Human Services, Administration 
for Children and Families (2002). Making a Difference in the Lives of 
Infants and Toddlers and Their Families: The Impacts of Early Head 
Start. Washington, DC.
    \3\ Ibid
    \4\ Shonkoff J., and Phillips, D. (Eds.) (2000). National Research 
Council and Institute of Medicine. From Neurons to Neighborhoods: The 
Science of Early Childhood Development. Washington, DC: National 
Academy Press.
    \5\ Ibid
    \6\ U.S. Department of Health and Human Services, Administration 
for Children and Families (2002). Making a Difference in the Lives of 
Infants and Toddlers and Their Families: The Impacts of Early Head 
Start. Washington, DC.
    ZERO TO THREE Policy Center (2003). The national evaluation of 
Early Head Start: Early Head Start works. Washington, DC: Author.
    \7\ U.S. Department of Health and Human Services, Administration 
for Children and Families (2002). Making a Difference in the Lives of 
Infants and Toddlers and Their Families: The Impacts of Early Head 
Start. Washington, DC.
    \8\ U.S. Department of Health and Human Services, Administration 
for Children and Families (2001). Building Their Futures: How Early 
Head Start Programs are Enhancing the Lives of Infants and Toddlers in 
Low-Income Families, Summary Report. Washington, DC.
                                 ______
                                 

  Statement of Dr. Tim Nolan, Director, Head Start Program, Waukesha 
                  County, WI, Submitted for the Record

    Chairman Castle, Congresswoman Woolsey and distinguished members of 
the committee, I thank you for inviting my testimony regarding 
exemplary Head Start programs. It has been my honor to serve as the 
director of the Head Start program in Waukesha County, Wisconsin since 
1968. I have also served during this period as executive director of 
our agency, operating as Child and Family Centers of Excellence which 
provides Head Start, Early Head Start, full day child care services and 
a variety of other services for children and families in our community. 
I am also executive director of the newly created Early Childhood 
Excellence Network with members from across the U.S. As president of 
Innovative Outcomes, Inc. since 1973, I have been a consultant to 
organizations on issues of organizational effectiveness, strategic 
planning and transformational change. I am the author or co-author of 
34 books on these and related topics. It is upon this diverse and rich 
background that I draw as I approach the topic of exemplary Head Start 
programs. I believe that excellent Head Start programs are an untapped 
asset that can be used to help make every Head Start the best that it 
can be.

Every Head Start Grantee is Expected to Meet High Minimum Standards:
    The Head Start Performance Standards are the highest minimum 
standards in the field of early childhood development. These standards 
are comprehensive in nature and reflect the need to deal with a child 
across all of his or her developmental dimensions. All agencies are 
expected to meet or exceed these minimum standards. Meeting the 
Performance Standards does NOT equate to excellence.

Exemplary Head Start Agencies:
    Exemplary Head Start agencies see the Performance Standards for 
what they are--minimum standards of performance. For agencies pursuing 
excellence in their operations, the Performance Standards are a 
foundation, and a reminder of all the dimensions necessary to achieve 
success. Exemplary agencies don't work to meet minimums, they work to 
shape the standard of excellence through constant innovation.
    Excellent Head Start agencies surpass the minimum standards in 
measurable ways, and are innovative in ways that help to shape the 
field itself and to improve the performance of others. Excellent 
agencies have staff members who write books, act as community leaders, 
train others and provide support and technical assistance to others.
    We at Child and Family Centers of Excellence see ourselves as a 
``direct services, demonstration, information services organization.'' 
We are the largest publisher of professional development materials for 
Head Start other than the federal government itself. As a point of 
reference, when I relate our experience as an agency, please keep in 
mind that what we are accomplishing is done with the same level of Head 
Start funding as other agencies--our federal investment per child is 
approximately at the national average. We are proud to say that our 
administrative costs are below the allowable level of 15%, and are 
closer to 10%. Finally, the staffing levels, degree levels of staff and 
other variables that we discuss have been our pattern for many years, 
with a constant effort to extend and upgrade quality seeking to reach 
excellence in all that we do. We are never satisfied. Our 
organizational culture is focused on always being able to affirmatively 
answer the question ``Is this the best we can do for this child or 
family?''

Human Resource and Human Resource Development
    The key assets of a Head Start program are its human resources. 
Exemplary Head Start grantees recognize this and focus inordinate 
efforts at recruiting, developing and retaining the top quality people 
available to do this work, which is the most demanding early childhood 
developmental work one can be asked to do, due to the depth of problems 
and challenges that enrolled families are experiencing. Excellent 
agencies have every staff member adhere to a constant professional 
development effort.
    At Child and Family Centers of Excellence, our human resource 
development (HRD) program is headed up by an associate director who 
holds a master's degree. As executive director, one of my two master's 
degrees is also in human resource development, since I take a special 
interest in this aspect of our work. We not only focus on maximizing 
the quality of our own staff, but provide training and technical 
assistance to other early childhood and family service organizations on 
these issues, both inside and outside of our target area. We are 
partners with both Viterbo University and the University of Wisconsin 
at Milwaukee. Our work as a Governor's Center of Early Childhood 
Excellence makes us a training and technical assistance resource to 
other Head Start and early childhood programs. We operate a leadership 
institute in Missouri and are in the tenth year of providing an early 
childhood leadership laboratory in Colorado.

Teachers
    While the Head Start Performance Standards specify a minimum of 
associate degrees for classroom teachers, exemplary Head Start programs 
are more likely to have bachelor's degreed teachers, in many cases 
certified or licensed for early childhood.
    All of the teachers at Child and Family Centers of Excellence, 
Inc., have bachelor's degrees and are certified in early childhood 
education with two years of additional training that we provide. Our 
teachers, who bear the title ``Child and Family Specialists,'' receive 
training in ``real world'' child development, learning to apply their 
skills in real early childhood settings with children with relatively 
deep needs. Their training further includes achieving a family services 
credential (9 graduate credits) to prepare them to serve as the primary 
family service resource to parents, making referrals where the needs 
surpass their capabilities. They also receive training as supervisors 
since every lead person in a preschool classroom supervises other 
adults, both employees and volunteers. Few colleges prepare even 
degreed teachers for this work as a supervisor. Finally, woven into 
their child and family specialist training process is an ongoing series 
of personal growth experiences to ensure that they are prepared to 
handle the rigors of working in our complex, demanding environment. 
They are provided support from internal mental health service personnel 
to support their own mental health while working with demanding child 
and family needs. Other early childhood staff members working under the 
direction of our Child and Family Specialists are hired with as much 
background and formal training as possible. While they may even hold 
associate or bachelor's degrees when they join us, they are immediately 
placed into a developmental track to move their skills forward to meet 
current and future needs of this agency.

Family Service Personnel
    While the Performance Standards are very light in specifying 
academic standards for family services staff, excellent Head Start 
agencies develop their own high standards. Excellent agencies seek 
degreed individuals and tend to seek a variety of backgrounds as they 
build a diverse interdependent family services team.
    In our agency, this program is lead by an individual with a 
master's degree and years of experience in working with young children 
and their families. The Child and Family Specialists working here are 
all carefully selected for their mix of skills and training. 90% have 
college degrees. All are given family service credential training. Our 
senior staff are approved by our university partners to deliver this 
training for credit.

Administrators
    Excellent agencies seek the most highly qualified individuals for 
management and place them into an ongoing professional developmental 
program.
    Our agency management team has a high degree of stability, with 106 
years of experience with this agency among the top four senior 
administrators. These four individuals hold a total of nine degrees--
four bachelor's, four master's and a doctorate among them, all relevant 
to their work. In addition, we have four others currently working on 
master's degrees. Our administrators ``lead from out front,'' doing 
whatever needs to be done, working at those things that will make the 
biggest difference for the children and families, reducing their pay 
first when dollars are tight.

Excellence is About Having Higher Expectations Throughout. . .Think 
        About a Kaleidoscope
    Excellence in Head Start is looking at how to improve--to do a 
better job--to better respond to the needs of the children and families 
we serve. One can best think of excellence using a kaleidoscope as a 
frame of reference. When one turns a kaleidoscope, the eye is treated 
to one beautiful picture followed by yet another beautiful picture. 
This is the case as you explore the top performing agencies in Head 
Start. They do NOT fit a single mold, but express their excellence in a 
variety of ways. Their excellence is defined by their vision of what 
the ideal program must do to best serve the children--to get the best 
possible outcomes for their work.
    Using our agency as a further example, here are a few of the 
dimensions that I would pull to express this:
    Our child nutrition program was very good, certainly the best in 
our target area. Yet as childhood obesity and incredibly poor eating 
patterns in young children have become a more critical national 
problem, we were not satisfied that our food services program met and 
exceeded the Head Start Performance Standards or the USDA Child 
Nutrition Standards. We went out and recruited a chef. We hired a young 
chef with over a decade of experience in the top restaurants in 
Milwaukee to lead our food program, to develop the most healthy yet 
economical food program possible with low fat stocks made in our own 
world class kitchen and flavor that doesn't come only from fat and 
salt. As a center of excellence, what we learn will be shared with 
other Head Start and early childhood through providing training, 
training materials and a handbook for child nutrition. And we are doing 
this at the same dollar cost as any other agency.
    Our health services program was very good, but we knew it could be 
better. We added a second part-time RN to our staff to ensure strong 
parent support on health issues and more horsepower to seeking health 
services for our enrolled children and their families. We deepened our 
partnership with the County Health Department by letting them offer a 
community health clinic at our site once per month. We deepened our 
already deep level of mental health services by developing a contract 
with the Children's Hospital of Wisconsin. Not only does this give us 
on-site support of a child psychologist on a regularly scheduled basis, 
a requirement for Head Start, but it provides ready access to the 
largest array of child mental and medical health services in Wisconsin. 
We've had a long term relationship with Lutheran Social Services, which 
is the largest human services private provider in our state, and is the 
birth through 3 provider in our county. Due to our prominence in the 
community, they purchased land next to our new world class facility in 
order to create a showcase intergenerational program in partnership 
with us. A fringe benefit to this deepened partnership is the fact that 
their full staff, including mental health professionals and a full 
array of child services specialists--dozens of skilled child 
specialists--will be housed on our expanding ``campus,'' a huge benefit 
to our staff and parents.
    Our community partnerships have been very good and are deepening. 
Two of our staff over the years have been president of the Waukesha 
County Human Services Council. We have created a loosely organized 
group, Partners in Community Service, that arrays itself as the needs 
evolve in our community. Due to our outreach capabilities with low 
income families in our community, other early childhood family service 
organizations seek us out. We are a strong referral source to others 
seeking to meet the needs of low income families.
    Since Wisconsin was the ``national poster child'' for rapid welfare 
reform nationally, we were forced to create new approaches to 
recruiting and enrolling the neediest young children in our countywho 
suddenly were very difficult to find and identify--we went from 1,670 
families on AFDC to 14 families on full public assistance in less than 
24 months! Through our leadership into the wonderful world of 
marketing, we not only achieve full enrollment each year, but have a 
waiting list of nearly 100 children. Excellent programs adapt. Finding 
350 eligible children in a sea of 350,000 relatively affluent citizens 
of our county is not easy, but excellent programs adapt and succeed 
tied to fulfilling their vision for themselves. We wrote a handbook on 
the topic and have trained hundreds in how marketing can assist the 
transformational change necessary in recruitment and retention of 
eligible children.
    We've always served a somewhat diverse population of families even 
though our target area is low in full ethnic diversity. As the Hispanic 
population has grown, we have adapted. We've recruited top quality 
Spanish speaking staff. We also are committed to the notion that not 
only is language important, but so is culture. Our staff members who 
were recruited to serve our expanding Hispanic clientele are not only 
bilingual but bi-cultural. As we found these rare and talented staff 
members, including one individual who holds a master's degree in 
psychology, we've found that more families see us as a welcoming place 
for them to bring their precious and so needy young children. It is our 
county's experience with ``hire them and they will come !
    Financial controls are a hallmark of a truly excellent Head Start 
agency. When one is trying to do as much as possible with very limited 
financial resources, careful stewardship of dollars is absolutely 
critical. We have a proud track record of 38 years of absolutely clean 
audits. As age impacts us, one of our senior staff, our chief financial 
officer, nears retirement, closing out her 35 years with this agency. 
We went out and recruited a new finance person with a bachelor's degree 
in business and an accounting major. The transition spanned nearly 18 
months of orderly development. The discussion upon hiring this new 
finance person has been ``will she pursue her CPA or her MBA first ? 
Assuming that she spends the next decade or two with us, a fair 
expectation given our track record, she will achieve both.
    Curriculum, what it is that we do with young children and their 
families to achieve the targeted outcomes that identify success, is 
critical to excellence. There is no published curriculum that fully 
meets the shifting needs of those we serve, so, of course, we developed 
our own, formalizing it nearly 20 years ago. It is a curriculum based 
on achieving outcomes, which has been its hallmark since its inception, 
long before outcomes became the national discussion. Our Child 
Development Profile'' has always been outcomes achievement based, and 
undergoes a periodic review by our highly trained and educated staff to 
determine what is working best in our efforts to prepare children for 
public school and life. We work hard to have a knowledge building 
organization, learning constantly from our practices, a form of action 
research which is most relevant to practitioners.
    We are partners with each of the school districts from whose area 
we recruit Head Start children. The depth of partnership varies with 
both the number of children we feed into their district and the 
relationships that have been developed over time. The most potent 
partnerships function best at the levels closest to child service 
delivery. These relationships, formed on behalf of an individual child 
and family, are most effective and most removed from the politics of 
systems. We continue to explore common ground with one of our prime 
school districts which is exploring going into 4-year-old kindergarten 
``because it is profitable.'' Those closest to the children are clear 
that quality services that will really make a difference in the life of 
a young child at risk are major investments, and that the ``profit'' 
that a district might experience can come only at the cost of accepting 
mediocrity and shortfall.
    Excellence is about people and about vision, but it is greatly 
enhanced by providing the stage for people to express their very best. 
Facilities are a key to creating this platform from which excellence 
can take flight. We have created the ideal early childhood facility. 
Child development spaces are designed to fully support the efforts of 
the incredibly talented corps of child and family specialists. Every 
classroom is seamlessly connected with an outdoor area since many of 
our young children have little access to play areas in their lives away 
from us. We have a world class kitchen so that the food services staff 
can create wonderful, nutritious meals. We have professional training 
space so that we might constantly develop our own staff and provide the 
training and professional development so needed by other child and 
family service people from our target area, our state and our region. 
Our facilities subtly serve four critically important goals:
    A.  Recruitment and retention of the children and families that we 
seek to serve.
    B.  Recruitment and retention of the staff that are the key to our 
success. Our staff members come to us and stay with us for much of 
their careers because we treat them with professionalism and respect. 
This starts with providing them with the tools for excellence. It 
involves creating a culture of excellence.
    C.  Positioning us as a leader in the community. By creating a 
welcoming environment, we have community partners seeking us out. We 
transmit the professionalism that leads to being treated with respect. 
The payoff is increasingly impactful services for the children and 
families that we serve.
    D.  Attracting families who are not low income or at high risk. By 
being able to achieve a full socioeconomic mix of families served, we 
achieve much more progress with children who are served by Head Start. 
We have offered full day services year around since we were created in 
1966, not because regulations required it, but because our families 
needed it.

State Efforts. . .The Governor's Center for Early Childhood Excellence
    Our state, under the administration of Gov. Tommy Thompson, decided 
to invest in excellence for our youngest children. The result was a 
program entitled The Governor's Centers for Early Childhood Excellence. 
An effort to explore how to achieve excellence in early childhood 
services, in a world of mediocrity in early childhood programs was 
about learning more about how to define excellence, to move good 
agencies toward excellence, to make investments and to research the 
results. As in any good investment, there was an immediate commitment 
to research, in this case by the University of Wisconsin. The findings? 
Deeper investments result in better quality programs and better 
qualified staff.
    Child and Family Centers of Excellence competed for such a grant 
and were pleased to be selected. Given our high level of internal 
service delivery quality, where some Governor's Excellence Centers 
grantees directed most of their resources to internal quality 
improvement (while meeting the requirement of investing 25% of the 
grant each year into training other early childhood program staff and 
parents), we directed over 65% to training others. We have leveraged 
this state investment into a number of highly creative, impactful 
professional development experiences and have helped others improve 
their quality of service to children and families.

Excellence is About Shaping the Future. . .One Child and One Family at 
        a Time
    Excellence is about making a difference in the lives of young 
children and their families. It is about removing barriers to success 
for the young child that is served directly. It is about helping 
parents learn how to support the learning of their child, even when 
their own school experiences may not have been wonderful. It is about 
capacity building in families so that they can succeed long after they 
leave their early childhood program.
    Early Childhood Excellence CANNOT flourish without involving 
parents. We believe that the success of Head Start is about the 
creation of what we have labeled as ``Compassionate Partnerships'' 
between Head Start staff and the parents of enrolled children on behalf 
of the young child. When this partnership gets established, trust 
follows. With this trust, open honest communication occurs and the 
parents'' ability to support learning at home goes up. Parents may 
choose to work on their own lives and thus improve the environment in 
which they are raising their child. When we partner with them, we help 
them identify resources which facilitate overcoming the barriers to 
success in their lives and the lives of their children.
    One key belief that we have is that any program which seeks to make 
a difference in the lives of young children, especially those with high 
risk factors, MUST seek to involve the parent in meaningful ways. We 
are passionate advocates for this as schools seek to serve younger and 
younger children. Parent support is a key to success!
    We would ask that Congress provide high expectations surrounding 
any program that you fund that the parent be an important part of the 
work with young children.

Excellence is About Shaping the Future. . .One Organization at a Time
    Excellence is about shaping the environment as well as adapting to 
the changes in it. Excellent Head Start agencies provide leaders to 
other organizations and associations. They lead early childhood 
associations. They provide leadership in community efforts. They 
challenge others to be the best that they can be. They encourage 
excellence in others by their model, their voice and their sharing.
    At Child and Family Centers of Excellence, Inc. a number of us have 
taken leadership roles in groups and associations. My own dual 
commitment not only to Head Start but to all early childhood programs 
in our state began nearly a third of a century ago, when I was elected 
the first president of the Wisconsin Early Childhood Association 
(WECA), which would become the state affiliate of the National 
Association for the Education of Young Children (NAEYC). We sit on the 
Boards of R&R's, Technical College early childhood programs and others.
    We've provided ongoing strategic planning consultation services for 
WECA, the Wisconsin Head Start Association, The Registry, the Milwaukee 
R&R, and another 27 associations across the U.S. Over 450 Head Start 
programs nationwide have used our strategic planning materials and 
model. We help others develop their passionate vision of their ideal 
future and work to make that future a reality for children, parents and 
staff.

Unique But Not Alone
    We are unique but we are not alone, across the United States there 
are agencies like ours and unlike ours. They are like us in that they 
are driven by the passion of a vision of excellence. They accept 
nothing as being ``good enough'' if a better solution might break 
through to a higher quality of service to children and families, 
achieving better outcomes. They are like us because they reach out to 
community partners, to child development professionals, to family 
service workers to help them improve. They are like us because their 
locus of control is on achieving their own super demanding standards, 
not on meeting someone else's minimums.
    They are not like us in that their approach to the future is 
different. Their look through their kaleidoscope is shaped by the needs 
of the children and families they serve, and is shaped by the resources 
present, and the resources absent in their community. Their vision has 
power because it is their vision.

Excellence in all of Head Start Should Be Our Aspiration
    One of the opportunities that Head Start Reauthorization offers is 
to focus not only on remediating or replacing poorly performing 
agencies, but on building on the strengths of our best agencies. We 
must recognize and reward those who excel. We should develop a 
monitoring system that gives grades of ``A'' and ``B'' as well as C, D 
and F. We must require regional offices of ACF to ensure the 
improvement of all Head Start grantees with which they have been 
entrusted. As was done in last year's Senate bill, we should make an 
investment in having the best among the Head Start grantees contribute 
to the improvement of other Head Start programs, early childhood 
programs and public schools serving young children. Excellence is a 
virus we want everyone to catch!
    The opportunity for excellence is ours. We ask that Congress join 
with us to use our nation's excellent Head Start programs as an asset 
to help all Head Start programs become the best that they can be.
                                 ______
                                 

 Statement of Ann Pagliaro, Executive Director, Head Start of Eastern 
         Orange County, Newburgh, NY, Submitted for the Record

    On behalf of the children, families, and staff of Head Start of 
Eastern Orange County, I am extremely pleased to be able to submit this 
testimony about our efforts at becoming a model Head Start program. We 
are a relatively new grantee, now in our third year of providing high 
quality services to children and families here in Newburgh, NY. 
Currently we serve 227 children and families, in a range of different 
program options, including some full-day, full-year services. We have a 
wonderful school building and office space, purchased in part with 
federal funds, well-qualified teachers (all of our lead teachers have 
at least a bachelor's degree), and caring staff. Our program is fully 
enrolled, with a long waitlist, and our child outcome and family 
outcome data shows children and families make incredible progress 
through their participation in Head Start. We have an active and 
engaged board of directors and policy council, both of whom help ensure 
we provide high quality services to children and families.
    Our path to this point has been a long and winding one. Just five 
years ago, most of our current staff was part of a larger agency that 
had not filed an audit in several years, and where the executive 
leadership was unable to clearly account for all Head Start funds. At 
the program level, our staff did the best possible job they could 
considering the circumstances, but we labored in poor facilities, often 
without the funds we needed to fully equip and outfit the classrooms. 
Through the federal review process, the previous agency was identified 
as deficient, and, under extreme pressure, voted to relinquish the Head 
Start grant for Newburgh.
    In that dark moment our new agency was born. The programmatic 
leadership staff, parents, and community leaders created Head Start of 
Eastern Orange County to submit the required Head Start RFP to become 
the replacement grantee. We formed new partnerships, worked closely 
with the community, recruited a diversely talented board and were 
eventually awarded the grant. In short order, we were able negotiate a 
lease for a beautiful new facility that actually provided much better 
classrooms for less cost than we were previously paying. We brought in 
certified trainers to help us implement our research-based curriculum, 
and we went about installing and using a child information system and 
on-line child outcome tracking system so we could electronically manage 
all aspects of our program. We were able to expand our programming to 
offer summer and after-school services for eligible families for the 
first time.
    As important as these programming changes have been, we are most 
proud of the cultural change we have created throughout our new agency. 
We have succeeded in building a culture focused on performance, 
feedback, and continuous improvement. All staff has clear performance 
indicators in their job descriptions, are regularly evaluated, and are 
compensated based on their success. Staff also has many opportunities 
to give management feedback, in terms of upward evaluations of their 
supervisor, and ideas for how we can improve every aspect of our 
program. Each year, we develop a Balanced Score Card for our program 
identifying clear targets for improving the quality of services 
delivered. We work incredibly hard to track all information in our 
child and family database, and then use this data, in the classroom, 
with family advocates, and with staff, to help us make important and 
informed program decisions.
    One example of our use of data and focus on management has been 
home reading by parents. This past year, based on our Head Start self-
assessment and child outcomes data, we identified increasing reading at 
home as a key goal for the year. We set the goal of working with 
families to ensure at least 50% read nightly with their children and 
another 30% read at least weekly. We then devised a system to monitor 
this information on our family information database. Our monthly 
``Manage By Information'' report shows that we have now met our goal 
for night and weekly reading. Best of all, our Spring child outcome 
data shows the results of our work: reading was the item that showed 
one of the largest gains from the Fall, with more than a 20% increase. 
In short, our focus on management, patterning with parents, and using 
data to make decisions, has led to higher quality services, and, 
ultimately, changed lives.
    One key way we have been able to reach our goals is through a 
partnership we formed from the first days of our new agency with 
Acelero Learning. Acelero provides on-site coaching and feedback, 
technology and tools, and network support for all our managers and 
leaders. Our Acelero partner is an experienced manager and has led our 
efforts at implementing a child information and child outcome system, 
helped devise our performance evaluation system, and helps all our 
managers develop as effective leaders. Each of our coordinators knows 
their individual content area, where they have worked for years. 
Acelero has built on that capacity by helping us all develop our skills 
as effective manager's that use data to make decisions and work to 
build a culture of feedback and performance improvement. Our 
partnership works because it is intensive, focused and on going. The 
work of managing a Head Start program never takes a break, and neither 
does our partnership with Acelero. As partners, we have worked through 
all of the challenges that we have faced on a daily and weekly basis. I 
know we would not be where we are today with out them.
    Our entire program believes deeply in the comprehensive nature of 
the Head Start program and its power to change lives. We have seen the 
power of the Head Start performance standards as a guide and beacon for 
providing high quality services. We have seen them work in practice, 
every day, in Newburgh. That is why it is so difficult for us to have 
100 children and families on a waitlist, and more who are interested, 
who we cannot serve. To that end, any effort to make more funds 
available to programs that have a waitlist, and are providing high 
quality services, would be appreciated. I assure you, these funds would 
be used, immediately, to help more children and families get a Head 
Start on school, and in life. Thank you.

                                 <all>

</pre></body></html>
